APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Supreme Court of New Jersey
(December 8, 2020) ............................................. 1a
Opinion of the Superior Court of New Jersey
(May 27, 2020) .................................................... 3a
Order of the Superior Court of New Jersey
Granting Motion (September 13, 2019) ........... 18a
Order of the Superior Court of New Jersey
Denying Stay (July 17, 2019) ........................... 19a
Order to Show Cause with Temporary Restraints
(July 16, 2019) .................................................. 21a
Transcript of Decision
(June 2, 2019) ................................................... 25a
OTHER DOCUMENTS
Application for Permission to File
Emergent Motion (July 17, 2019) .................... 69a
Letter from the Department of Health Regarding
Notice of Summary Suspension
(June 18, 2019) ................................................. 82a

App.1a
ORDER OF THE
SUPREME COURT OF NEW JERSEY
(DECEMBER 8, 2020)
SUPREME COURT OF NEW JERSEY
________________________
AMERICARE EMERGENCY
MEDICAL SERVICE, INC.,

Plaintiff-Petitioner,
v.
THE CITY OF ORANGE TOWNSHIP,
BELL MEDICAL TRANSPORTATION,
TOWNSHIP OF IRVINGTON, and
TOWNSHIP OF SOUTH ORANGE,

Defendants,
and
STATE OF NEW JERSEY DEPARTMENT
OF HEALTH OFFICE OF EMERGENCY
MEDICAL SERVICES, JAMES SWEENEY,
SCOTT PHELPS, and ERIC HICKEN,

Defendants-Respondents.
________________________
No. 084600
C-317 September Term 2020

App.2a
A petition for certification of the judgment in A000117-19 having been submitted to this Court, and
the Court having considered the same;
It is ORDERED that the petition for certification
is denied, with costs.
WITNESS, the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 8th day of December, 2020.
/s/ Heather J. Baker
Clerk of the Supreme Court

App.3a
OPINION OF THE
SUPERIOR COURT OF NEW JERSEY
(MAY 27, 2020)
SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
________________________
AMERICARE EMERGENCY
MEDICAL SERVICE, INC.,

Plaintiff-Respondent,
v.
THE CITY OF ORANGE TOWNSHIP,
BELL MEDICAL TRANSPORTATION,
TOWNSHIP OF IRVINGTON, and
TOWNSHIP OF SOUTH ORANGE,

Defendants,
and
STATE OF NEW JERSEY DEPARTMENT
OF HEALTH OFFICE OF EMERGENCY
MEDICAL SERVICES, JAMES SWEENEY,
SCOTT PHELPS, and ERIC HICKEN,

Defendants-Appellants.
________________________
Docket No. A-0117-19T4
On appeal from an interlocutory order of the
Superior Court of New Jersey, Law Division,
Essex County, Docket No. L-2397-19.

App.4a
Before: WHIPPLE, Gooden BROWN, and
MAWLA,1 Judges.
WHIPPLE, J.A.D.
On leave granted, the New Jersey Department
of Health (Department) Office of Emergency Medical
Services (OEMS), appeals from a July 16, 2019 Law
Division order lifting the summary suspension of
plaintiff AmeriCare Emergency Medical Service, Inc.’s
(AmeriCare), license to operate as an emergency
medical service provider and permitting an action to
proceed under the New Jersey Civil Rights Act,
N.J.S.A. 10:6-1 to-2 (CRA). Under the CRA, “the party
alleging a claim must show a violation of a substantive right or that someone ‘acting under color of law’
interfered with or attempted to interfere with a substantive right.” State v. Quaker Valley Farms, LLC,
235 N.J. 37, 64 (2018). Since AmeriCare did not make
that showing, we reverse.
AmeriCare, an entity that provides emergency
transportation services, is licensed to operate mobility
assistance vehicles (MAV), basic life support vehicles
(BLS), and specialty care transport unit vehicles
(SCTU). AmeriCare operates six BLS/SCTU vehicles
and one MAV vehicle. OEMS, through the Department,
has the legislative authority through its rules and
regulations to grant, renew, and revoke licenses to
entities engaged in performing emergency medical
transportation services. OEMS also has the authority

1 Judge Mawla did not participate in oral argument. He joins
the opinion with counsel's consent. R. 2:13-2(b).

App.5a
to issue summary suspensions of licenses issued to
entities that conduct such services.
In June 2018, OEMS conducted an audit of AmeriCare’s overall compliance with applicable regulations
as well as an inspection of the emergency vehicles under
their operation. OEMS filed a summary suspension of
AmeriCare’s license to operate and initiated revocation
proceedings asserting AmeriCare engaged in a variety
of regulatory violations relating to specific vehicles
and the company’s overall operation such as the
credentialing of employees, record keeping, and the
maintenance and security of patient-related records.
In February 2019, the summary suspension and
proposed revocation was withdrawn without a formal
enforcement consequence imposed.
On May 30, 2019, OEMS received a complaint
that doors on an AmeriCare vehicle were falling off
their hinges, oxygen cylinders were empty due to
system leaks, and wheels were falling off an AmeriCare
ambulance while in use. The complainant informed
OEMS that those same vehicles were responsible for
providing emergency medical services for the City of
Irvington and Village of South Orange. At the time of
the initial complaint, one of AmeriCare’s BLS/SCTU
vehicles, Vehicle 5261, was deemed out of service by the
Department for having an inoperable front emergency
grill light, missing protective jackets, and a missing
fire extinguisher inspection tag.
In response, on May 31, 2019, OEMS conducted
an unannounced inspection on two of AmeriCare’s
BLS/SCTU vehicles, Vehicles 5256 and 5258. The
inspectors found serious safety concerns and the
vehicles were deemed out of service. Vehicle 5256
had expired vehicle credentials, a loose rear step, an

App.6a
unsecure oxygen retention system, a balding front
tire, an improperly attached side door, a hole in the
passenger seat making it pervious to blood borne pathogens, and a map light with exposed wires. OEMS also
found similar violations with Vehicle 5258 including
a balding front tire, unsecured portable oxygen, a
missing front license plate, a hole in the arm rest of
the front passenger seat making it pervious to blood
borne pathogens, a dashboard radio which falls out
while driving, and an unsanitary portable suction unit.
These violations prompted OEMS to conduct an
unannounced audit of AmeriCare on June 3, 2019.
The investigators claimed they visited AmeriCare’s
principal place of business, a location in Dumont, but
found no AmeriCare official. The investigators visited
Americare’s location in Irvington, where they found
Vehicle 5259, which they inspected and placed out of
service after finding serious safety concerns. After
the inspection, OEMS scheduled a meeting with an
AmeriCare employee, but the meeting did not take
place because the employee never arrived.
On June 4, 2019, OEMS, unable to reach representatives of AmeriCare, placed AmeriCare’s remaining
vehicles out of service to ensure public health, safety
and welfare. OEMS also contacted the appropriate
dispatch centers as well as both the City of Irvington
and the Village of South Orange. On June 5, 2019,
South Orange Village terminated its contract with
AmeriCare.
After learning OEMS was contacting AmeriCare’s
clients, Fabrizio Bivona, AmeriCare’s founder and CEO,
contacted OEMS and arranged for the re-inspection
of its vehicles. On June 10 and 12, 2019, additional
inspections were performed and Vehicles 5261, 5256,

App.7a
and 5259 were placed back into service after inspection.
The remaining vehicles were not restored at that
time. AmeriCare argues that OEMS refused to inspect
and pass the remaining vehicles despite failing to
identify any violations. AmeriCare further asserts that
an OEMS representative spoke with a city attorney
for Orange Township noting that over fifty percent of
AmeriCare’s vehicles remained out of service.
Despite three of the vehicles being reinstated, on
June 18, 2019, the Department summarily suspended
AmeriCare’s license to operate emergency medical
transportation services. The suspension letter contained
a detailed history of the inspection of AmeriCare’s
vehicles, as well as a description of the other violations
OEMS found during the investigation.
Ultimately, the summary suspension forced
AmeriCare to stop operating all vehicles and OEMS
notified AmeriCare that it had the “right to apply to
the Commissioner of the [Department] for emergency
relief to contest this summary suspension,” and that
“failure to submit a request for a hearing within
[thirty] days from the date of this Notice shall result
in the continued summary suspension of your . . . provider licenses. . . . ” AmeriCare asserts it did not receive
the summary suspension letter until a week after the
letter was finalized.
Rather than file for emergent relief, AmeriCare
filed an order to show cause for injunctive relief and
an amended complaint in lieu of prerogative writs in
the Law Division seeking to add OEMS and Scott
Phelps, Director of OEMS, Eric Hicken, Administrator
of OEMS, and James Sweeney, Chief Investigator, as
defendants in its prerogative writs complaint. AmeriCare was already involved in litigation which alleged

App.8a
public bidding violations against the City of Orange
and Bell Medical Transportation (Bell). In its bid litigation against the City of Orange and Bell, AmeriCare
alleged that in response to a request by the City of
Orange to submit sealed bids for a contract to perform
emergency medical services, AmeriCare submitted
the lowest bid but the contract was awarded to Bell.
The City of Orange and AmeriCare were allegedly in
settlement negotiations when, according to AmeriCare,
OEMS investigator Sweeney began inspecting its
vehicles and OEMS took two vehicles out of service.
AmeriCare further asserted OEMS advised its clients
that AmeriCare was out of business, which ultimately
resulted in the loss of municipal contracts. AmeriCare
asserts OEMS wrongfully notified its clients of AmeriCare’s suspension before it notified AmeriCare and
OEMS’s actions were invalid and designed to interfere
with its business in violation of its civil rights under
the CRA and 42 U.S.C. § 1983.
On July 1, 2019, the Law Division judge heard
oral argument on the order to show cause and motion
for injunctive relief. The court found it had jurisdiction
to issue the relief sought and ordered that the summary
suspension be lifted to permit AmeriCare to operate
the vehicles that were re-inspected and re-authorized
by OEMS, provided they remained in compliance with
the applicable legal standards. The court also ordered
OEMS to re-inspect AmeriCare’s remaining vehicles
which remained out of service. The court rejected
OEMS’s argument that AmeriCare was required to
exhaust its administrative remedies and on July 16,
2019, entered an order memorializing its July 2, 2019
decision. OEMS sought a stay of the trial court’s order
on July 17, 2019, and the application was denied. On

App.9a
July 29, 2019, OEMS moved for leave to appeal and
for a stay of the trial court’s July 16 order, which we
granted. This appeal followed.
I.
On appeal, OEMS asserts we should vacate the
trial court’s July 16 order for the following reasons:
1) plaintiff failed to exhaust its administrative
remedies; 2) even if plaintiff were not required to
exhaust its administrative remedies, the trial court
lacked jurisdiction to consider plaintiff’s claims because
review of agency action lies with the Appellate Division;
and 3) plaintiff’s claims lack merit. At the outset, we
first address whether the Law Division had subject
matter jurisdiction to adjudicate AmeriCare’s complaint. The determination of whether subject matter
jurisdiction exists is a legal question, which we
review de novo. Santiago v. N.Y. & N.J. Port Auth.,
429 N.J. Super. 150, 156 (App. Div. 2012).
OEMS asserts the trial court erroneously concluded AmeriCare was not required to exhaust its
administrative remedies and could pursue relief from
OEMS’s regulatory decisions in the Law Division.
OEMS argues that no matter how AmeriCare “styled
its claims” the substance of those claims are not civil
rights violations but are substantive challenges to the
summary suspension itself and that the trial court
lacks the expertise to consider the summary suspension
as the OEMS’s licensing function falls within its
technical expertise.
The CRA provides, in pertinent part, a remedy
against private and public defendants for a person
who has

App.10a
been deprived of any substantive due process
or equal protection rights, privileges or immunities secured by the Constitution or laws of
the United States, or any substantive rights,
privileges or immunities secured by the
Constitution or laws of this State, or whose
exercise or enjoyment of those substantive
rights, privileges or immunities has been
interfered with or attempted to be interfered
with, by threats, intimidation or coercion by
a person acting under color of law. . . .
[N.J.S.A. 10:6-2(c).]
The CRA further provides that actions “may be filed
in Superior Court. Upon application of any party, a
jury trial shall be directed.” N.J.S.A. 10:6-2(d). “[T]he
CRA is facially silent about any other procedural
requirement that a plaintiff must satisfy in order to
bring a CRA cause of action.” Owens v. Feigin, 194
N.J. 607, 611 (2008).
In Owens, 194 N.J. at 611-14, the Court examined
the legislative history and the plain language of the
CRA to determine whether the Legislature intended
for the Tort Claim Act’s (TCA), N.J.S.A. 59:1-1 to-12-3,
notice-of-claim requirement to apply to CRA causes
of action. There, Owens timely filed a notice-of-claims
to public entities and employees that were named
defendants but did not file a notice-of-claim for one
defendant, Feigin, the county medical examiner. Id.
at 610. The Court held that the notice requirement
did not apply to CRA claims as neither the plain language of the CRA nor its legislative history contain
any indication that the Legislature intended the
TCA’s notice requirement to “serve as a prerequisite
to a CRA cause of action.” Id. at 61314. In reaching

App.11a
this conclusion, the Court noted the “broad remedial
purpose of the CRA” supports the conclusion that the
Legislature did not condition “the rectifying of an
infringement on an individual’s vital constitutional
rights,” on the satisfaction of the notice requirement.
Id. at 614.
The United States Supreme Court also recognized
the need to analyze legislative intent in determining
whether a procedural scheme, such as the exhaustion
of administrative remedies, is a prerequisite to bringing
a claim under a federal civil rights statute. In Patsy
v. Bd. of Regents of Fla., 457 U.S. 496, 516 (1982),
the Court held the exhaustion of state administrative
remedies is not a prerequisite to bringing a 42 U.S.C.
§ 1983 claim. There, the Court recognized Congress
intended the Civil Rights Act of 1871, the precursor
to § 1983, to “‘open the doors of the United States
courts’ to individuals who were threatened with, or
who had suffered, the deprivation of constitutional
rights . . . and to provide these individuals immediate
access to the federal courts notwithstanding any
provision of state law to the contrary. . . . ” Id. at 504.
(citations omitted). The Court also recognized that
although the exhaustion requirement would further
various policies such as lessening the burden on federal courts and enabling the state administrative
agency, with expertise in the area, to enlighten the
federal court’s decision, these policy considerations
alone cannot justify judicially imposed exhaustion
unless the exhaustion is consistent with the legislative
intent. Id. at 512-13.
Based on our review, we do not find the trial
court erred in concluding that plaintiff was not required to exhaust its administrative remedies before

App.12a
bringing a claim under the CRA in the Law Division.
Like the Court in Patsy, we decline to read into the
CRA an exhaustion of remedies requirement as doing
so would be inconsistent with legislative intent. See
Tumpson v. Farina, 218 N.J. 450, 474 (2014) (noting
the interpretation of 42 U.S.C. § 1983 claims may
provide guidance in construing our CRA); Owens,
194 N.J. at 615 (noting the CRA serves a “broad
remedial purpose.”).
However, while the exhaustion requirement is
not a prerequisite to bringing a CRA claim in the
Law Division, we have also refused to allow plaintiffs
to avoid the exhaustion of administrative remedies
when their claims amount to nothing more than a
collateral attack of a State administrative determination. In Beaver v. Magellan Health Servs., Inc.,
433 N.J. Super. 430, 432-34 (App. Div. 2013), the
plaintiff, an insured former public employee, sued
the New Jersey Health Benefits Program and a medical provider after his son’s treatment at a substance
abuse facility was denied. Beaver appealed the decision and the matter was transferred to the Office of
Administrative Law for an evidentiary hearing. Id. at
434-35. The Administrative Law Judge (ALJ) recommended denial of the claim and the State Health
Benefits Commission (SHBC) adopted the ALJ’s findings and conclusions. Id. at 435-36.
Beaver later filed a complaint in the Law Division
alleging breach of contract, breach of fiduciary duty,
unjust enrichment, and a violation of the New Jersey
Consumer Fraud Act. Id. at 436. The trial judge dismissed those claims for lack of subject matter jurisdiction and plaintiff appealed. Id. at 437. On appeal,
Beaver asserted his complaint did not “challenge the

App.13a
SHBC’s final administrative action, but rather is a
separate action at law alleging statutory and common
law causes of action. . . . ” Id. at 437. He contended the
SHBC action was irrelevant to the asserted causes of
action and the defendants argued that the language
in Beaver’s complaint illustrates that, regardless of
the claims asserted, he was simply seeking coverage for
his son’s treatment, and that reversal of the SHBC’s
determination was essential to his complaint. Id. at 439.
We explained that an examination of the causes
of action set forth in the complaint is pivotal to a determination of jurisdiction. Ibid. Affirming the dismissal,
we said:
[P]laintiff has explicitly stated that his complaint is brought to recover “unpaid benefits”
under the Program. Accordingly, to recover,
plaintiff must necessarily secure a reversal
of the SHBC final agency action upholding the
denial of those same benefits. Plaintiff cannot
avoid this obvious conclusion by cloaking his
claims under the mantle of contract and tort.
[....]
[S]tripped to their barest essentials, plaintiff’s
claims, sounding in tort and contract, amount
to no more than a collateral challenge to
the . . . SHBC final agency action upholding
the limitation of coverage for plaintiff’s health
benefit claims. Indeed, absent an attack on
that final agency action, plaintiff’s tort and
contract claims are patently without basis
in fact or law.
[....]

App.14a
Accordingly, plaintiff’s complaint in the
Law Division must be dismissed for lack of
jurisdiction. To hold otherwise would permit
plaintiff to collaterally attack a State administrative determination in the Law Division.
[Id. at 441-44.]
In this case, jurisdiction hinges on whether
AmeriCare has a colorable CRA claim and if so, the
nature of the CRA claim. The Legislature adopted
the CRA “for the broad purpose of assuring a state
law cause of action for violations of state and federal
constitutional rights and to fill any gaps in state
statutory anti-discrimination protection.” Owens, 194
N.J. at 611. As noted above, the CRA is modeled
after the federal Civil Rights Act, 42 U.S.C. § 1983,
and provides a vessel for “vindicating substantive
rights and is not a source of rights itself.” Gormley v.
Wood-El, 218 N.J. 72, 98 (2014).
The elements of a substantive due process claim
under the CRA are the same as the statute it was
modeled after, 42 U.S.C. § 1983. Rezem Family Assocs.,
LP v. Borough of Millstone, 423 N.J. Super. 103, 115
(App. Div. 2011). The first step “is to identify the
state actor, ‘the person acting under the color of law,’
that has caused the alleged deprivation.” Id. at 114
(quoting Rivkin v. Dover Twp. Rent Leveling Bd.,
143 N.J. 352, 363 (1996)). Next the party must
“identify a right, privilege or immunity secured to
the claimant” by the constitutions of the state and
federal governments or by state and federal laws.
Ibid. (internal quotations omitted) (citations omitted).
Therefore, to bring a cause of action under the CRA,
the second element requires a party to allege a specific constitutional violation. Our case law is clear

App.15a
that an individual may prevail on a claim under the
CRA only when: (1) the plaintiff has actually been
deprived of a right; or (2) one acting under color of
law has threatened, intimidated, or coerced a person
or attempted to do so, in such a way that it interferes
with the person’s exercise or enjoyment of his rights.
Felicioni v. Admin. Office of Courts, 404 N.J. Super.
382, 400 (App. Div. 2008).
In its complaint, AmeriCare’s first assertion is
OEMS violated N.J.S.A. § 10:6-2 by, among other
things, arranging for questionable inspections of its
ambulances, giving failing grades based on insignificant
and non-material violations, failing to inspect all
vehicles, refusing to perform re-inspections, and ultimately suspending AmeriCare despite three of its
vehicles being placed back into service just days prior
to the suspension. The very essence of these claims is
a collateral attack on agency action.
Although not expressly stated in the complaint,
even if AmeriCare alleged it was deprived of its right
to an occupational license, such a deprivation does
not rise to the level of a substantive due process violation. “[A]n occupational license is in the nature of a
property right.” Santaniello v. N.J. Dept’t of Health
& Sr. Servs., 416 N.J. Super. 445, 460 (App. Div. 2010)
(citation and internal quotations omitted). However,
“[t]here is no protectable property right in continuing
or future [licensure] since any existing property interest
in the [license] is extinguished upon its expiration.”
Id. at 459. Therefore, “constitutional due process
protects against only the improper suspension or
revocation of a license; it does not protect against a
licensing board’s summary refusal to reinstate a
license that has been revoked.” Id. at 460 (citation

App.16a
omitted). Accordingly, AmeriCare would only be able
to challenge the procedural process, i.e. the improper
suspension or revocation. Here, AmeriCare was entitled
to emergency relief by the Commissioner of the
Department for review of OEMS’s period of suspension
and was so advised. Since procedural due process
claims cannot be brought under the CRA,2 plaintiff
cannot proceed under this theory. AmeriCare was
offered the process it was due.
II.
AmeriCare’s second assertion is the “Individual
Defendants” further violated 42 U.S.C. § 1983 by
making statements containing confidential and nonpublic information to municipal officials, which resulted
in AmeriCare being denied contracts with certain
municipalities and for existing contracts to be rescinded
or terminated. The second assertion, in general terms,
alleges the Department’s unethical conduct is a violation of AmeriCare’s “due process and civil rights.”
We decline to offer an opinion on the record before
us whether a cause of action based on these allegations
has validity. We do recognize, however, the allegations
inescapably require the fact-finder to determine the
validity of OEMS’s summary suspension, a role that
falls under the exclusive province of the Department.
To prove that OEMS unconstitutionally harmed its
business, AmeriCare would be required to attack the
agency’s determination that it should no longer be
licensed. Without the right to operate as a licensed
entity, the above-referenced claims are rendered moot.
2 The CRA was specifically amended to limit the legislation’s
scope to substantive due process.

App.17a
Thus, as we stated in Beaver, 433 N.J. Super. at 441,
“to recover, plaintiff must necessarily secure a reversal
of the . . . agency[‘s] action.”
Reversed. We do not retain jurisdiction.

App.18a
ORDER OF THE SUPERIOR COURT OF
NEW JERSEY GRANTING MOTION
(SEPTEMBER 13, 2019)
SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
________________________
AMERICARE EMERGENCY
MEDICAL SERVICE, INC
v.
THE CITY OF ORANGE TOWNSHIP
________________________
Docket No. AM-000646-18T4
Motion No. M-008708-18
Before: Carmen H. ALVAREZ,
Greta GOODENBROWN, Judges.
This matter having been duly presented to the
court, it is, on this 6th day of September, 2019, hereby
ordered as follows:
Motion by Appellant
Motion for Leave to Appeal: Granted
Motion for Stay: Granted
Supplemental:
For the Court:
/s/ Carmen H. Alvarez
P.J.A.D.

App.19a
ORDER OF THE SUPERIOR COURT OF
NEW JERSEY DENYING STAY
(JULY 17, 2019)
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION–ESSEX COUNTY
________________________
AMERICARE EMERGENCY
MEDICAL SERVICE, INC.,

Plaintiff,
v.
THE CITY OF ORANGE TOWNSHIP,
STATE OF NEW JERSEY DEPARTMENT OF
HEALTH OFFICE OF EMERGENCY
MEDICAL SERVICES, JAMES SWEENEY,
SCOTT PHELPS and ERIC HICKEN,

Defendants,
BELL MEDICAL TRANSPORTATION,
TOWNSHIP OF IRVINGTON, TOWNSHIP
OF SOUTH ORANGE,

Interested Party
Defendants.
________________________
Docket No. ESX-L-2397-19
Before: Hon. Keith E. LYNOTT, J.S.C.

App.20a
A motion for a stay of the Court’s July 16, 2019
order having been brought by counsel for the Defendants New Jersey Department of Health, Office of
Emergency Medical Services, James Sweeney, Scott
Phelps, and Eric Hicken (collectively “OEMS”), by
letter dated July 17, 2019, upon notice to all interested
parties, and the Court having considered the request
the argument of counsel, and for the reasons set
forth on the record,
IT IS HEREBY ORDERED on this 17th day of
July 2019, that OEMS’s request for a stay of the July
16, 2019 order lifting the summary suspension of
Plaintiff’s license is denied.
/s/ Honorable Keith E. Lynott
J.S.C.

App.21a
ORDER TO SHOW CAUSE WITH
TEMPORARY RESTRAINTS
(JULY 16, 2019)
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION–ESSEX COUNTY
________________________
AMERICARE EMERGENCY
MEDICAL SERVICE, INC.,

Plaintiff,
v.
THE CITY OF ORANGE TOWNSHIP,
STATE OF NEW JERSEY DEPARTMENT OF
HEALTH OFFICE OF EMERGENCY
MEDICAL SERVICES, JAMES SWEENEY,
SCOTT PHELPS and ERIC HICKEN,

Defendants,
BELL MEDICAL TRANSPORTATION,
TOWNSHIP OF IRVINGTON, TOWNSHIP
OF SOUTH ORANGE,

Interested Party
Defendants.
________________________
Docket No. ESX-L-2397-19
Before: Hon. Keith E. LYNOTT, J.S.C.

App.22a
THIS MATTER having being opened to the Court
pursuant to R 4:52-2 by Genova Burns LLC and
Franzblau Dratch, P.C., attorneys for plaintiff Americare Emergency Medical Service, Inc. (“Plaintiff”), upon
notice to defendants, the City of Orange Township,
State of New Jersey Department of Health Office of
Emergency Medical Services, James Sweeney, Scott
Phelps, and Eric Hicken (“Defendants”) and the Court
having considered Plaintiff’s proposed Amended
Complaint, Brief, and Certification of Fabrizio Bivona,
with exhibits submitted in support thereof; and the
Court having considered the opposition papers filed
by the State of New Jersey; and the Court having
further considered the argument of counsel; and the
Court finding that Plaintiff has, and will continue to
suffer immediate and irreparable harm unless
temporary restraints are entered by this Court; and
good cause having been shown; and for the reasons
set forth on the record on July 2, 2019;
IT IS on this 16 day of July, 2019,
ORDERED as follows:
1. A temporary injunction lifting the summary
suspension of Plaintiff’s license shall issue effective
July 2, 2019.*
2. Plaintiff’s three vehicles (#1FTNE24W66HB
15035, 1FDX4FS5BDA94528, and 1FDXE4FSXBDA
61265) which were in service at the time of the June
18, 2019 summary suspension shall be placed back in
use effective July 2, 2019;*
3. Defendants shall perform re-inspections on
Plaintiff’s vehicles (#1FDXE4FSCXDA31734 and

App.23a
1FDXE45F93HA75656)–within 72 hours of the entry
of this Order;
4. Defendants shall conduct an inspection of
Plaintiff’s vehicles in a manner consistent with the
law and inspections performed on other EMS companies
in the State, and failing vehicles only for material
deficiencies;
5. Defendants shall promptly re-inspect any of
Plaintiffs ambulances that are found to have material
deficiencies in the initial re-inspection;
[...]
7. A true copy of the within Order to Show
Cause, Amended Complaint and supporting papers
shall be served on counsel for Defendants via electronic
filing; and
8. Plaintiff is hereby granted leave to file the
proposed Amended Complaint; and
9. The parties shall engage in expedited discovery
with respect to the issues in dispute raised in the
Amended Complaint;
10. The parties shall submit a proposed discovery
Order;
 These requirements are intended to establish the status quo
ante as of the date of such suspensions and do not operate to
prohibit the Defendants from conducting or continuing to
conduct any audit procedures consistent with the law or from
taking any enforcement action authorized by law in the future.
 Although not specifically noted in its bench opinion, the
Court grants as of July 2, 2019, leave to amend the Complaint
and permits the Amended Complaint submitted with the application to be filed as of such date.

App.24a
11. There shall be a telephonic Case Management
Conference on July 23, 2019 at 10:00 a.m. to address
the status of the expedited discovery; and
12. Defendants shall also show cause before this
court on the August 15, 2019 at 9:00 a.m. why an
Order should not be entered providing preliminary
injunctive relief of the above and the following:
[...]
B.

Such other and further relief as the Court
deems just, equitable and proper.

13. Defendants are hereby granted leave to move
for dissolution or modification of the aforesaid temporary restraints on two (2) business days’ notice to
Plaintiff’s counsel, which notice shall be served by
hand delivery or overnight mail to Rajiv D. Parikh,
Esq., Genova Burns LLC, 494 Broad Street, Newark,
New Jersey 07102; and
14. A copy of Defendants’ responsive briefs and
papers in opposition to this Order to Show Cause
shall be filed and served on Plaintiff by August 7,
2019; and
15. A copy of any reply papers by Plaintiff shall
be filed and served by August 12, 2019.
/s/ Keith E. Lynott
J.S.C.

App.25a
TRANSCRIPT OF DECISION
(JUNE 2, 2019)
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION, CIVIL PART
ESSEX COUNTY, NEW JERSEY
________________________
AMERICARE EMERGENCY
MEDICAL SERVICE, INC.,

Plaintiff,
v.
THE CITY OF ORANGE TOWNSHIP,

Defendants,
BELL MEDICAL TRANSPORTATION,

Interested Party
Defendants.
________________________
Docket No. ESX-L-2397-19
Before: Hon. Keith E. LYNOTT, J.S.C.

[June 2, 2019 Transcript, p. 4]
AUTOMATED RECORDING: Please enter your participant or moderator code, followed by the # key.
(Pause in proceedings)
AUTOMATED RECORDING: Thank you for calling
the Genova Burns (inaudible) Conference Center.

App.26a
AUTOMATED RECORDING: Please state your
name, followed by the # key. (Beeping tone)
THE COURT: Judge Lynott.
Good morning to everyone. Do we have everyone
here?
COUNSEL: (Inaudible).
COUNSEL: Thank you, Your Honor.
COUNSEL: Thank you, Your Honor.
THE COURT: All right. We have a little bit of technical difficulty with the phone I normally use not
functioning. So the phone we are using is a little
bit of distance away. I’m going to go up on the
bench for it’s easier for me to look at my notes.
But if you can’t hear me then I’ll have to relocate.
So just give me one moment.
All right. Is everyone able to hear me all right?
COUNSEL: Yes, Your Honor.
THE COURT: All right. If you, in the course of doing
this, you’re not able to hear me, don’t hesitate to
interrupt and we’ll see what we can do about
that. I am several feet away from the speakerphone
for reasons I just explained.
All right. This matter is Americare Emergency

Medical Services, Inc. v. the City of Orange
Township and Bell Medical Transportation, as
an interested party defendant. It’s L-2397-19.

It is pending before the Court, an application to
amend the complaint in this matter to name, as
well as defendants in the case the State of New
Jersey Department of Health, Office of Emergency

App.27a
Medical Services, James Sweeney, Scott Phelps
and Eric Hicken—hope I pronounced that correctly, as well as the Township of Irvington and
Township of South Orange. In the latter case of
Irvington and South Orange as what I referred
to as interested party defendants.
So that—this case bears Docket Number L2397-19.
Pending before the Court is an application for entry
of an Order to Show Cause with temporary
restraints. Those restraints are directed at the
State of New Jersey Department of Health,
Office of Emergency Medical Services, under the
proposed amended complaint in this action.
The Court heard argument yesterday. As—as the
parties know, the parties are on the telephone.
The Court is going to render an oral bench ruling
in the matter, so counsel are present on the
telephone.
Would those on the phone identify themselves,
please?
MR. PARIKH: Thank you, Your Honor. Rajiv Parikh,
Maria Fruci, from Genova Burns, on behalf of
Americare.
MR. DESHPANDE: Shay Deshpande from the firm
Franzblau Dratch on behalf of AmeriCare.
MR. SULLIVAN: Greg Sullivan, Deputy Attorney—
MR. BARTLETT: Good morning, Your Honor. John
W. Bartlett, Orlando Murphy, L.L.C., on behalf
of the Township of Irvington.

App.28a
MR. SULLIVAN: Greg Sullivan, Deputy Attorney
General, for the Office of Emergency Medical
Services.
MR. WISE: Good morning, Your Honor, Michael Wise,
Norris McLaughlin, on behalf of Bell Medical
Transportation.
THE COURT: All right. Anyone else?
All right. I am going to provide you with a ruling
on this matter. It will take some time to go through
it. It’s a fairly lengthy recitation of my opinion.
As I said, I hope you’re all in a place where you
can—you can listen comfortably and safely. So,
as I said, this will take some time.
I want to let you all know that I am in the midst
of a jury trial. We have a jury that is hard at
work, deliberating. They occasionally have requests
and questions and—and other matters that I
need to attend to. Particularly given the fact that
they have been here for a number of months, I’m
very conscious of my need here to attend to
whatever question they may have or need they
may have. So if I’m given an indication that I
need to do something vis-a-vis the—or with the
jury, I am going to have to suspend this proceeding. We’ll do it as quickly as we can, of course. I
don’t want to inconvenience the parties on the
phone any more than I need to, but that is a
possibility. So I wanted to alert you to it and if
that—if that circumstance arises, I’ll let you
know, and as I said, we’ll move it along as
quickly as—as we can.
All right. As I said, pending before the Court in
this case is an application for entry of an Order

App.29a
to Show Cause with certain temporary restraints
that are directed in this case to the New Jersey
State Department of Health, Office of Emergency
Medical Services. I’ll sometimes refer to the
Department of Health in this context as the
Department or OEMS, by which I—I mean the
same thing here.
The procedural circumstances that, at the moment,
the OEMS, a—a—a complaint, an amended complaint in an existing action has been tendered by
the plaintiff, American [sic]—AmeriCare Emergency Medical Service, and I’m going to refer to
that entity as AmeriCare in the course of this
opinion.
As I said, this is an existing action. It was commenced earlier this year against the Township of
Orange. I will describe that at some length in a
few moments. But, nonetheless, in—in the present
context, the plaintiff has filed a—a proposed
amended complaint naming the State DOH OEMS
and certain individuals as defendants, as well
as, as I said earlier, the Township of Irvington
and the Township of South Orange as interested
party defendants.
The application for restraint, for an Order to Show
Cause, seeking a hearing on preliminary injunctive
relief and including temporary restraints is, as I
said, directed against the State DOH OEMS only.
The Court was presented with a proposed
Amended Verified Complaint which it has
reviewed and Affidavit of Mr. Bivona, who I understand to be a principal in AmeriCare. Various
exhibits were presented, as well as a legal brief.

App.30a
The Court, upon receipt of this application,
scheduled yesterday, July 1, for hearing of this
matter. It certainly permitted the State to submit
any papers it wished to submit and was in receipt
of a letter brief with appended exhibits submitted by the Office of the Attorney General on
behalf of the Department of Health, the DOH.
I’ll per—perhaps also—I’ll perhaps also refer to the
Department of Health as the DOH at times. I
mean all of those terms to have the same meaning
in this regard.
I conducted a [sic] oral argument yesterday, heard
from both sides. Counsel for the Township of
Orange was also present at that hearing, although
this—the Township has not submitted any papers
or offered any arguments and, as I said, the
relief that’s sought in this particular application
is not at the moment directed at the City of
Orange or any other party, other than the DOH.
I see this case as presenting essentially the
intersection or crossroads of the right of a regulated entity to pursue a claim in this Court
grounded in an alleged violation of civil rights—
of its civil rights under N.J.S.A. 10:6-2 and its
comparable Federal provision, referred to as
Section 1983, both of which claims under both of
which statutes are pleaded in the amended complaint as against the right of the State, in this
case the Department of Health, to enforce its
regulatory authority and to require a regulated
party to exhaust administrative remedies before
seeking Court intervention.

App.31a
I believe the procedural history of this matter is
certainly relevant to my findings here. As briefly
as I can put it, AmeriCare is a li—is—is a
licensed regulated entity. It is licensed to operate
mobility assistance vehicles, sometimes referred
to as MAV, basic life support vehicles, sometimes
referred to as BLS, and specialty care transport
unit vehicles, or SCTU. These appear to be three
different, although related activities, involving
the transport of individual patients in ambulances
or, in the case of the Mobility Assistance Program,
some other type of vehicle, either for medical
care or for transport in an emergency basis to
hospitals and/or to transport patients between
medical facilities.
As I understand the record here, AmeriCare
operates seven vehicle in total. Six of them appear
to be ambulances that are engaged in BLS and
SCTU services. I note from my understanding of
the record that there are different protocols and
different regulatory requirements depending upon
which of those two functions the vehicle is
engaged in at any particular time. AmeriCare
also operates one mobility assistance vehicle.
The record reflects—I don’t know and the record
doesn’t reveal the full range of services that
AmeriCare currently, or at least until recently
provided, but the record does reflect that it was—
or was party to a contract to perform certain of
these services in the Town—in the Village of South
Orange, as well as the Township of Irvington.
This case incepted earlier this year when AmeriCare sought to challenge the bidding procedures
of the City of Orange Township, which led to the

App.32a
award of a contract for these types of emergency
services in the City of Orange Township to Bell
Medical Transportation. AmeriCare contended
that the bidding procedures were not in conformity
with applicable public contracting law.
The Court heard, as I believe all parties know,
the Court heard previously an application for
restraints against the entry into a contract as
between the City of Orange Township and Bell
Medical Transportation, which at the time was
the successful bidder in the proceedings that—
by which the City of Orange Township solicited
and received and awarded bid—a bid for that
particular contract. The Court granted a temporary
restraint against that process going forward,
having concluded that there was a sufficient
showing of certain deficiencies in the process
of—the bidding process.
The Court understands from subsequent conversations—on—on—on the record conversations and
status conferences with the parties that were
previously involved with that component of the
case, that is, AmeriCare versus the City of Orange
Township, that the parties, at least for some
time, were working on a resolution, the—the
specific details of which are unknown to the
Court, but I understood there was some possible
agreement on a resolution of that matter, when
the matters that I will describe in a moment,
that are the subject matter of the current
Amended Verified Complaint and the current
application arose.
The other party—principal party to this case is
the New Jersey Department of Health and, specif-

App.33a
ically, it’s Office of Emergency Medical Services.
Of course, the New Jersey Department of Health
has a wide ranging brief of responsibilities, but in
this particular arena, it operates under authority—
legislative authority granted to it under the
Healthcare Facilities Planning Act, which is at
N.J.S.A. 26:2H-1 et seq. It operates in the area of
advanced life support services, including specialty
care—a Specialty Care Transport Program under
the authority of N.J.S.A. 26:2K-7 and the med—it
also has legislative authority under the Medical
Assistance and Health Services Act at N.J.S.A.
30:4D-1.
It has adopted under these authorities pertinent
rules and regulations that govern the activities
of entities providing services of the type that are
at issue in this litigation. Those rules and regulations are generally set forth at N.J.A.C. 8:40
and 8:41.
Specifically, the N.J. D.O.H. has the legislative
authority which it implements through its rules
and regulation and its overall regulatory program,
the power to grant, renew and revoke licenses to
entities engaged in performing these services,
essentially, emergency medical transport services,
through mobility assistance, basic life support,
specialty care transport unit services. That
authority confers—includes authority—or that—
that role by—of the Department of Health includes
the authority to suspend on a summary basis
the operation of vehicles, pursuant to N.J.A.C.
8:41-12.3, upon a finding of an imminent threat
to the public health, safety or welfare.

App.34a
There is also authority under 8—N.J.A.C. 8:407.2b to issue summary suspensions of licensing
granted to entities engaged in this area of
endeavor upon a—a finding of an imminent or a
substantial threat to the public health, safety
and welfare from the continued operation of the
particular entity.
There are in place under applicable rules and
regulations both of the N.J. D.O.H., as well as
the Office of Administrative Law a vari—administrative procedures, including a right to—on the
part of a regulated entity, to seek emergency
relief from any type of summary suspension. The
rules of the Department, combined with the rules
of the Office of Administrative Law, contemplate
an application for such emergency relief to made
directly to the Commissioner of the Department,
pursuant to N.J.A.C. 8:41-12.4. The Commissioner, under that body of rules and regulations,
has the authority to either decide the matter for
himself or herself or to refer the matter for a
hearing before the Office of Administrative Law
and the rules made clear that in that instance
there is provision made for the conduct of an
expedited hearing of an application for emergency
relief.
The same—it—it’s apparent from a prior process
before the Administrative Law in this very
matter, about which I’ll say a bit more later,
that the Office of Administrative Law heard in
this case an—an application last year for
emergency relief. As I will note in a few moments,
it denied that relief at that time, but it was clear
from the opinion that the Court issued, which is

App.35a
of record in this case, that the Court in that
context applied the same standards for granting
or denying emergency relief of the sort—the—
the type that was requested in that particular
circumstance, as this Court would apply, namely,
the standards—the well known standards for
temporary and preliminary injunctive relief that
were—that are set forth Crowe versus DeGioia,
90 New Jersey 126 (1982) and certainly other
cases as well.
The—the pertinent procedural and factual history
of this matter dates back actually to the early
part of 2018, when the Department of Health,
through its Office of Emergency Medical Services,
initiated an—an—an audit—initiated inspections
of vehicles that were then operated by AmeriCare
and an audit of its overall compliance with the
applicable regulatory scheme. Ultimately, in
June—May or June of 2018, the Department
of—of Health issued a summary suspension of
the license to operate that AmeriCare held and
ultimately initiated revocation proceedings.
There were a lar—a wide variety of regulatory
violations that were alleged in the course of that
summary suspension and proposed or sought
revocation of the license. They have related to
the specific individual vehicles themselves and
their compliance with a variety of regulatory
requirements, as well as matters going to the
more overall operation of AmeriCare, including
such matters as—as credentialing of—of employees, of record keeping and the form of standard
operating procedures and maintenance and
security of patient-related records, as well as

App.36a
reporting of patient-related data as required, to
the Department.
There ensued a—a process between approximately
June of 2018 to February of this year, 2019, in
which it—it’s clear from the record the parties,
that is, AmeriCare and the D.O.H., interacted with
one—with—with one another as to this pending
regulatory in—investigation and regulatory action
against it. It was in this context, I should note,
that—that AmeriCare did apply for the emergency
relief afforded under the applicable regulatory
scheme. As I said, that was heard through the
Office of Administrative Law and the—the—there
is of record the opinion that was authored in that
case in which the Court denied that emergency
relief, although I would note that it did conclude
that there was a showing of irreparable harm, and
otherwise didn’t find the Crowe versus DeGioia
standards were met and didn’t grant the relief.
There ensued, as I said, what—what appears on
the record to be—on the record currently before
this Court, to have been interactions between
AmeriCare and the Department of Health. It’s
not entirely clear exactly what these proceedings
consisted of, but it does appear to the Court that
these parties worked together to resolve the
matter to their mutual satisfaction.
As I understand it, and as this record currently
reflects, in February of this year the suspension—
the summary suspension and the proposed
revocation was withdrawn. There is nothing, in
this record anyway, to indicate that that process
resulted in the payment of any penalty or fine or
the entry of any type of Consent Order that re-

App.37a
quired any sort of corrective action plan that
was put in place.
In—in this regard, I’m going to emphasize the
limited nature of the record that I have before
me and emphasize to all parties that my rulings
in this matter are based on that current record
and should, and as this matter proceeds, is—and
if and were that record to be expanded, I might
come to different conclusions.
But on the present record, there is an indication
that that matter, prior regulatory matter, was
withdrawn, and withdrawn in a manner that
didn’t reflect any type of enforcement consequence
—formal enforcement consequence in the form of
a final penalty or a Consent Order or specific
corrective action plan that was put in place.
It was at this juncture, at this time frame, shortly
after—sometime after February ‘19, that the
matters that actually resulted in the inception of
this case prior to the current amendment of the
pleadings, which was a—a case as between
AmeriCare and the City of Orange Township
commenced. As I said a few moments ago, that
case had a somewhat different provenance. It
arose from essentially a bid protest.
AmeriCare contended it was the lowest bidder
among the bidders for the contract that Orange
was offering and soliciting bids for to conduct
these emergency medical transport services within
Orange Township. Orange commen—I’m—I’m
sorry—AmeriCare commenced an Action in Lieu
of Prerogative Writs against Orange to challenge
the bidding procedures that were employed. It

App.38a
sought and this Court granted an injunction based
upon its finding on the record then before it of
what I concluded were deficient bid procedures.
I scheduled this matter for further hearing
examination by way of application for preliminary
injunction. That was scheduled. It wasn’t and
still hasn’t been held. As I indicated earlier, it’s
been my understanding, or was my understanding
through a series of status conferences that the
Court held with the parties, that they were
working on a settlement, the specific terms of
which are unknown to the Court. But I do
understand that, at least at the present time,
that settlement negotiations have, at—at minimum, been suspended, if not collapsed as a
result of the matters that have brought us to the
present circumstances.
Beginning at the end of May, specifically May 30,
the record in this—at this time reflects that a
complaint of an unspecified complainant was made
against AmeriCare to the Office of Emergency
Medical Services. At that particular time, it
appears that one of Americare’s vehicles was
already placed out of service in what appears to
be an unrelated context. These vehicles all have
specific numerical designations. I’m going to refer
to these vehicles as—by their last two numbers.
I believe that should be clear enough for the
record.
Vehicle number 6—numbered 61 had been placed
out of service, even before this May 30 investigation was commenced. Although I do note and
will note later that that particular vehicle was

App.39a
subsequently reinspected and reinstated as of
June 12th, 2019.
Upon the initiation of this investigation, it appears,
and once again from the record presently before
the Court, that on or about May 31, the Department, through the Office of Emergency Medical
Services and an investigative unit consisting of
Mr. Sweeney and Mr. Phelps and Mr. Hicken, at
various times conducted a—a spot inspection of
two of AmeriCare’s other vehicles, specifically
vehicles 56 and 58, and these were placed out of
service as well, bringing the total number of
vehicles at that time that would have been
placed out of service to three of the—as I
understand it, the six emergency vehicles—the
six ambulances that—that were then owned,
maintained and operated by AmeriCare.
The Department then proceeded, according to the
present record, to commence an audit of AmeriCare’s operations. There was a visit to—it—it’s
principal office at—which is also, as I understand
it, a residence in Dumont. That was followed by
a visit to one of—to its Irvington, New Jersey
location. And at that point, the Department
conducted an inspection of a fourth vehicle, which
was number fifty-ni—59, which it also placed
out of service at that time.
The Department avers in—in its letter relating to
the—of June 18, 2019, relating to the summary
suspension that it has imposed here, that it was
unable to continue its investigation as it alleged
or asserts that—that AmeriCare was unresponsive
or uncooperative in this regard. It was—it is
averred in that document that there was a—an

App.40a
intended meeting between a representative of—
of AmeriCare and—and regulatory authorities
and the investigative team to be—take place
in—in South Orange. That—that that didn’t go
forward because the individual, it is averred,
didn’t appear.
On the next day, June 4th, approximately, at least
as the record reflects, as I’ve said, this meeting
was—was—had been set up and the individual,
according to the State’s recitation of these events,
didn’t—didn’t appear. At this point, the State
determined that it was going to place all of the
vehicles of—of AmeriCare out of service because
it couldn’t locate them for purposes of inspection
and, thus, at least two of the vehi—at least two
of the ambulance vehicles and the—the mobility
assistance vehicle were placed out of service
without having actually been inspected and
found to be in their—individually in violation of
any regulatory standard.
At this point, it appears that the investigators
informed the Village of South Orange and the
Township of Irvington that these vehicles of
AmeriCare had been placed, or determined to
not be operable, or placed out of service. Obviously,
the—the Department was aware of the engagement of AmeriCare in the Village of South Orange
and the Township of Irvington and it appears it
notified the Village and the Township of these
events.
There is evidence in the record that a day or
so earlier, because of the issues that I’ve just
recounted, South Orange came to the conclusion
that—that—that—that AmeriCare wasn’t able

App.41a
to respond and it was asking questions about
that inability to respond. As I said, as the investigation progressed, the remaining vehicles were
put out of service. Notice of this was apparently
given to South Orange. The record reflects that
on June 5th of 2019, South Orange terminated
its contract with AmeriCare.
Several days later, into the June 10 through 12
period—well, it appears that prior to—prior to
that time, Mr. Bivona, on behalf of AmeriCare,
was in touch with these investigators. The
record reflects that there was some arrangement
attempted to be worked out to reinspect the
vehicles at about the June 5th time frame. It’s
asserted in the June 18 letter of the Department
of Health that AmeriCare was not prepared for
that inspection or didn’t—didn’t enable it to go
forward.
But in all events, it’s also clear that as between
June 10 and 12, approximately, three of the
vehicle—the—the—three of the vehicles were
reinspected and were returned to service. Specifically, vehicle 61, 59 and 56. And, thus, as of
that timeframe, three of the vehicles were
cleared for continuing operations. The remaining
vehicles were not restored at this time.
AmeriCare asserts that the State, that the
investigators, declined to inspect the remaining
vehicles, at least on the present record, but I
find there’s no evidence to refute that there
was—that this is what happened. That they—
they declined to inspect the remaining vehicles.

App.42a
During this period, the record before the Court
also indicates that certain third parties were
made aware of these ongoing matters and proceedings, as I already noted. It appears that
representatives of the OEMS informed Village of
South Orange and the Township of Irvington
that it had placed all of the AmeriCare vehicles
out of service.
There’s also an indication in the record that a
representative of the Robert Wood Johnson
organization became aware of a—the existence
of a problem involving AmeriCare and was asking
questions of AmeriCare. The precise nature of
the relationship between Robert Wood Johnson
and AmeriCare is not on the record, but it’s clear
that a representative of Robert Wood Johnson
was aware of these events and was asking questions as to the current status and capabilities of
AmeriCare.
It’s also of record that an attorney representing
Bell Medical Transportation, which is a business
competitor of AmeriCare and, indeed, was the—
as I indicated earlier, was the—at the time,
the—the successful bidder in the Orange Township
contract, was in direct communication with
Investigator Sweeney. There is a June 10 e-mail
exchange in—in which Investigator Sweeney
acknowledged—he acknowledged limitations on
his ability to provide certain information, but
did go on to say that the matter involving
AmeriCare was an active investigation that that
investigation was in progress. That the vehicles
of AmeriCare had been placed—had been placed
off—out of service as a result of what were said

App.43a
to be significant safety issues and due to a
potential threat to the public welfare.
I want to take a moment to emphasize here that
there was no claim made in—in this proceeding,
and I make no finding in any way that there was
anything wrong with counsel for Bell Medical
Transportation making inquiries of the Department, and I make no such finding. The issue
raised here is not the legitimate inquiries and—
of—of—of Bell Medical Transportation, but the
nature and extent of the information that was
provided by representatives of the State in this
context to counsel for a business competitor.
Even putting aside the propriety of the disclosures
that were made to other third parties, it doesn’t
appear from the record currently before the
Court that the investigators ever corrected the
information that they disseminated to inform
anyone—the—of the reinstatement of the three
vehicles. At least, as I said, not on the basis of
the record presently before the Court.
On June 18th, 2019, the Department issued a
summary suspension letter which summarily
suspended the licensure of AmeriCare to operate
in this important public space of providing
emergency medical transportation services. That
letter is, of course, in the record. The letter notes
the history of the proceedings until the present
time, to some degree. It contains a very detailed
recitation of the problems with the individual
vehicles and it also notes that three of the
vehicles had been reinstated for operation, but
the remaining four vehicles had not.

App.44a
The letter also contains what I find to be rather
vague allegations of other problems, not related
to the vehicles themselves, as to which I do
conclude there was quite a detailed recitation of
the regulatory infractions associated with the
vehicles. But the—the letter also contains rather
less descriptive allegations of other problems
with credentialing of staff, with lack of a standard
operating procedure, with unsecured patient
records, with lack of reporting of patient care
data, and lack of cooperation in the investigation.
I—I find the discussion of these matters to be
noticeably vague, particularly in comparison to
the summary suspension of a year earlier, in
May 2018, which contained—or June 2018, which
contained very detailed allegations as to the specific defects in the individual vehicles, and all
the other matters which were then alleged by
the State and became the subject matter of subsequent regulatory proceedings.
In—in papers presented in this case, they actually
relate more to the pending subpoenas to individual
witnesses. In their present application to quash
that subpoena, I noted that the defendant calls
the June 18 document meticulous, and in some
respects I agree it is. Certainly with respect to
the recitation of the problems with the vehicles,
the document is quite detailed and meticulous.
But I come to a different conclusion when—or in
regard to the non-vehicle related allegations.
Indeed, some of the allegations were—it appeared,
anyway, to have been the subject of a lengthy
prior proceeding, specifically, the alleged lack of
standard operating procedures and the lack of

App.45a
care with respect to patient records and reporting
of patient data. Those matters had been included
among the matters, of—as the record reflects, were
the subject of very significant and lengthy regulatory proceedings which, as I noted earlier, ended
without at least formal compliance obligations,
or fines, or penalties and, thus, it appears to the
mutual satisfaction of the parties, including the
satisfaction of the State at the time, and that
time was only a few months before the events
that are the subject of this litigation incepted.
The allegation of a lack of cooperation as well
appears at—at—at odds to the extent that not
only was Mr. Bivona at a very early stage in—in
touch with the regulatory authorities, but there
were re-inspections of the vehicles that were
arranged and, at least in the case of three of
those vehicles, those re-inspections were successful.
So in the absence of—of further detail, it’s
difficult to credit the contention laid out in that
letter as the basis for the summary suspension—
that there was a lack of cooperation that warranted
further regulatory sanction.
Once the letter was issued on June 18th, it—it—
there is some dispute about how quickly that
letter was disseminated to AmeriCare. AmeriCare
contends it didn’t receive the letter for several
days and it wasn’t even dispatched to it until a
couple of days later. The record here does reflect
that Irvington was informed of the action taken
by the Department as early as June 19th and it
acted quite quickly to terminate its contract
with AmeriCare that it had in place at the time.

App.46a
Following that, the next event of pertinence here
was on—on June 25th, that notice was given—
informal notice. It is in the record it’s of an
informal nature, indicating that the investigators
who had participated in this investigation had
been removed from further participation in the
case.
At argument, counsel indicated—counsel for the
State indicated that this was a standard procedure
whenever the ac—actions of an investigator had
been called into question and, indeed, they had
been called into question. But, nonetheless, the
fact remains on the present record that the
investigators who participated in this investigation
and subsequent regulatory action were removed
from the case at this time.
This case might be examined through two different
types of lenses or—or according to two different
paradigms. The first is the plaintiff’s proffered
lens or paradigm, which is embodied in its—in
its Motion to Amend the Complaint to add the
Department of Health as a party to the case,
alleging claims sounding in violations of plaintiff’s
civil rights.
The plaintiff makes clear in its application that
it’s not seeking Court intervention to manage
individual vehicle inspections. He contends that
it’s asserting a larger issue, improprieties in the
investigation that was recently conducted and
violation of its civil rights that it contends are
actionable in an action in the Superior Court. As
I said, it seeks injunctive relief, which it has
characterized as limited in nature. Specifically,
it’s seeking an Order of this Court limiting—

App.47a
lifting the summary suspension of July—June
18th, 2019, and reinstating the operation of
AmeriCare, in particular the three vehicles that
had been reinstated already prior to the summary
suspension, and also requiring a reinspection of
the remaining four vehicles and their reinstatement, should they—or their reinstatement should
they—they—they survive or—or—or—or should
they pass the inspection.
On the other hand, the different lens and a
different paradigm is that offered by the Department of Health and the defendants who are—are
defending this action at the present time on
grounds of a failure of exhaustion of available
administrative remedies. They cite to the
undoubted right of the State, in this case, the
Department of Health, to regulate in this area
and to regulate this particular activity and this
particular entity. They cite the presumed administrative expertise of the Department of Health
in this area to make discretionary judgments on
the basis of its regulatory standards. It cites the
need for agency fact-finding here to determine
the validity or not of both the underlying facts
relating to AmeriCare’s operation, as well as the
validity or not of the investigatory steps that
were taken by—by the investigative team.
They note the availability of emergency relief to
AmeriCare through the applicable rules and
regulations, and through the Office of the Commissioner, and if the Commissioner so determines,
the Office of Administrative Law, followed by a
right of appeal to the Appellate Division—all of
which would be subject to the very same legal

App.48a
standards that the plaintiff asks the Court—this
Court to apply here.
I would note in this regard that although the State
has only thus far opposed the application itself
on grounds of lack of exhaustion, it didn’t crossmoving and I’m not—this isn’t criticism of any
party. The time was short. It didn’t cross-move
to dismiss the—or—or to ask the Court to reject
the proposed amended complaint. But the logical
outcome of its position is that the Court should
dismiss this putative action as against the
Department in favor of the application of the
administrative regulatory scheme and judicial
review through the Office of Administrative Law
and, ultimately, if necessary, the Appellate Division.
So, as I said, these parties present two significantly
different antipodal paradigms for this Court to
examine. I think the starting place here is the
New Jersey Civil Rights Act which is at 10:6-2.
That statute provides in pertinent part, if a
person, whether or not acting under color of law
subjects or causes to be subjected any other person
to the deprivation of any substantive due process
or equal protection rights, privileges, or immunities secured by the Constitution or laws of the
United State—United States or any sub—substantive rights, privileges, or immunities secured
by the Constitution or laws of this State, the
Attorney General may bring a civil action for
damages, for injunctive or other appropriate relief.
But subsection C of—of 10:6-2 also permits any
person who has been deprived of any substantive
due process or equal protection rights, privileges
or immunities secured by the Constitution or

App.49a
laws of the United States or any substantive
rights, privileges or immunities secured by the
Constitution or laws of this State, or whose exercise or enjoyment of these substantive rights,
privileges or immunities has been interfered with
or attempted to be interfered with by threats,
intimidation or coercion by a person acting under
color of law may bring a civil action for damages
and for injunctive or other appropriate relief.
Subsection D specifically provides that an action
brought pursuant to this Act may be filed in the
Superior Court and upon application of a party,
a jury trial shall be directed.
It’s clear from case law that’s been cited to the
Court, and which I have examined, that the rights
of a party against a public entity under the New
Jersey Civil Rights Act, specifically 10:6-2C and
D are not subject to Tort Claims Act procedures.
Owens versus Feigin, 194 N.J. 607 (2007) makes
this clear, and in so doing the Supreme Court
indicated the expansive remedial nature of the
C.R.A. The Court writes at page—looks like page
611—611 as follows. In 2004, the legislature
adopted the C.R.A. for the broad purpose of
assuring a State law cause of action for violations
of State and Federal Constitutional laws and to
fill any gaps in State statutory anti-discrimination protection. Citations to the—the—the session
law, as well as the Senate Judiciary Committee
statement to Assembly Bill Number 2073, I’m
quoting—stating that to protect and assure
against deprivation of the free exercises of civil
ri—of civil rights which are guaranteed and
secured under the New Jersey Constitution and

App.50a
Federal Constitution this Bill provides a remedy
when one person interferes with the civil rights
of another and, further, is intended to address
potential gaps which may exist under the [the
New Jersey Law against Discrimination and bias
statutory crime causes of action]. N.J.S.A. 10:6-2C
provides a remedy against private and public
defendants to a person who demonstrates that
he or she has been deprived of any substantive
due process or equal protection rights, privileges
or immunities secured by the Constitution or laws
of the United States, or any substantive rights,
privileges or immunities secured by the Constitution or laws of this State, or whose exercise or
enjoyment of those substantive rights, privileges or
immunities has been interfered with or attempted
to be interfered with by threats, intimidation, or
coercion by a person acting under color of law.
The Court goes on to state that notably, the
C.R.A.’s sole procedural component is found in
subsection D, N.J.S.A. 10:6-2D, which states
that C.R.A. actions may be filed in Superior
Court and directs the Court to hold a jury trial
upon application of any party. Otherwise, the
C.R.A. is facially silent about any other procedural
requirement that a plaintiff must satisfy in
order to bring a C.R.A. cause of action.
The Court goes on to state at page 613 that the
C.R.A.’s purpose includes rectifying violations of
Constitutional rights, the protection of which
has never depended on the satisfaction of a
T.C.A.’s—meaning the Tort Claims Act procedural
and substantive requirements.

App.51a
And the Court goes on to say at 613-614 that given
the stark field of case law universally rejecting
the importation of the T.C.A.’s Notice of Claim
requirement into other statutory claims, or for
any Constitutional claim, we think that the
legislature would have spoken expressly on the
subject had it intended that the T.C.A.’s notice
requirement serve as a prerequisite to the C.R.A.
cause of action.
Instead, neither the plain language of N.J.S.A.
10:6-2, nor the statutes legislative history contains
any indication of such intent by the legislature.
In light of the broad, remedial purpose of the
C.R.A. and absent any legislative expression to
the contrary, we are unconvinced that the legislature chose to condition the rectifying of an
infringement of an individual’s vital Constitutional
rights or of injurious discriminatory conduct on
the satisfaction of the T.C.A.’s Notice of Claim
requirement. If we are incorrect in that conclusion,
we are confident the legislature will clarify its
intent through amendment.
Now, this case doesn’t involve any argument, at
least at this point, under the Tort Claims Act,
but I find the—the discussion in Owens to be
instructive to the Court insofar as it—it—it
validates the statutory intention to afford a
cause of action in the Superior Court without
otherwise recognized procedural prerequisites in
cases involving—of actual or alleged violations
of civil rights.
I find this that bears on the application or not
of the Exhaustion Doctrine in this case. As I
indicated, the State in its opposition to this

App.52a
application has contended—has contended that
the—the action—the—the application, at minimum, if not the action—the proposed action as a
whole, should be dismissed on the basis of a failure to exhaust administrative remedies. And
that would appear to be somewhat at odds with
the Owens case, which indicates that these types
of procedural prerequisites are not apposite in
circumstances involving claims of violation of
civil right.
But, equally important, examining the case law on
the Exhaustion Doctrine, I come to the following
conclusions. I find in this regard, for example,
Brunetti versus New Milford, at 68 N.J. 576
(1975), to be pertinent in its discussion of the
boundaries of the Exhaustion Doctrine.
Now, that Court makes it clear that the exhaustion
requirement is—is an—certainly an important
requirement. It notes—the Court notes Rule
4:69-5, which provides that except where it is
manifest that the interest of justice requires
otherwise, actions under Rule 4:69 shall not be
maintainable as long as there is available a
right of review before an administrative agency
which has not been exhausted.
The Court notes that this—that it—the Supreme
Court has recognized that the exhaustion of
remedies requirement is a rule of practice designed
to allow administrative bodies to perform their
statutory functions in an orderly manner without
preliminary interference from the Courts. Citation
omitted.

App.53a
It goes on to state, therefore, while it is neither a
jurisdictional nor an absolute requirement, there
is, nonetheless, a strong presumption favoring
the requirement of exhaustion of remedies.
But the Court goes on to say admittedly, the
exhaustion requirement will be waived where
the interest of justice so requires. Quotation and
citation omitted. The Court notes that has been
held to mean that exhaustion of remedies will
not be required where administrative review
will be futile, where there is a need for prompt
decision in the public interest, where issues do
not involve administrative expertise or discretion
and only a question of law is involved, and
where irreparable harm would otherwise result
from denial of immediate judicial relief.
So, having examined those case—that—the case
law as to the Exhaustion Doctrine, I note that the
exhaustion of remedies is—is—is—is presumptive,
that is, that a party should party presumptively
have satisfied and followed, pursued all available
administrative remedies before pursuing this
type of judicial relief, but that such—such—such
action by the party is not a jurisdictional matter
and it is not always required and is not required
in circumstances involving irreparable harm.
I find that this is—this particular type of matter
is ordinarily one that would be and should be
addressed through the established administrative
process, with its deference to the legislatively
established mandate in this case of the Department of Health to protect public health and
welfare, and its administrative expertise in the

App.54a
matters that are at issue, such as the matters
that are at issue in this case.
The question for me is whether there are distinguishing features of this case that warrant
permitting this matter to proceed against a
public entity as a claim for violation of the New
Jersey Civil Rights Act in this Court with its
powers in appropriate cases to grant temporary
or preliminary and, ultimately, final injunctive
relief.
I’m going to note in this regard that no party has
lodged any claim thus far in this case that the
matters before this Court should be heard in any
place other than the Law Division. That is, no
application has been made that this matter
should be heard in the Chancery Division.
I find, having examined the present record, that
there is a sufficient basis in that record to permit
this case to proceed in this Court as a cognizable
claim for violation of civil rights, and to differentiate it from the far more typical case of a regulatory oversight and enforcement action properly
venued in the requisite administrative agency
and subject to its administrative procedures.
I emphasize that I come to this conclusion on the
basis of the limited record presently before the
Court. A more robust, completed record could
certainly alter my conclusions in this regard.
But I find the following circumstances warrant
this conclusion.
First, I find that the plaintiff, Ameri—AmeriCare,
has suffered and/or could suffer through further
proceedings in this matter, imminent irreparable

App.55a
harm. It has already suffered significant harm
through the suspension of its license. It has been
rendered unable to conduct its business activities.
There has been a termination of its contract with—
to provide emergency medical transportation
services by both the Village of South Orange and
the Township of Irvington. And, as I said, it’s presently disabled from conducting any of its business
activities through the summary suspension.
There is also the apparent collapse of the then
under negotiation settlement with the Township
of Orange in the underlying matter involving
the bid procedures and the prior litigation that
I’ve previously described.
It is certainly foreseeable that if this matter were
to proceed further, absent some type of intervention by the Court, that AmeriCare could quickly
be out of business entirely.
I find that this is a circumstance in which money
damages are not adequate relief in the circumstances. And I conclude that not only does this
circumstance support a conclusion that this is a
New Jersey Civil Rights Act case, but it provides
a recognized basis for the Court to decline to do
that, which it would do in almost all other cases,
and that is to cli—to decline jurisdiction in favor
of requiring the party to pursue administrative
remedies.
There are other factors that inform my decision.
I conclude that the parties have just engaged in
a lengthy regulatory process that, at least on the
present record, resulted in no adverse findings,
formal findings, penalties or corrective actions.

App.56a
Some of the very same deficiencies that were
alleged in the prior proceedings and that were
presumably addressed to the Department’s satisfaction in those proceedings are alleged again here,
albeit in what I find to be rather vague, imprecise
terms. And I find that is another circumstance
that warrants viewing this case as properly
submitted as a [sic] action under the Civil Rights
statute that is cognizable in this Court with this
Court’s procedures.
Other facts that I find are pertinent to this conclusion. There was a—on the record, at least presently
before the Court, a failure to inspect the remaining
vehicles of AmeriCare before putting all of them
out of service. On the basis of what I find to be a
rather unspecified claim of their unavailability
to be inspected, which seems to be at odds with
the fact that the other vehicles were presented
for reinspection and were, in fact, reinspected.
There was also a failure to reinspect the vehicles
after the three vehicles were reinspected and were
restored to service.
As the condition of these vehicles appears to be
fundamentally the basis for the summary suspension and the determination that was made of an
immediate and serious threat to public welfare,
that under Geurds (phonetic) that regulatory
action, I conclude that the failure in these circumstances to inspect or reinspect the vehicles
in the circumstances, as I said, appears to be an
arbitrary action.
Other facts I have noted in the record. I have noted
the—what I find to be the vague and unsupported

App.57a
claims of lack of cooperation, unattributed complainants, results of interviews with employees
of an unspecified nature concerning credentialing,
and the fact that certain of the issues that are
specified as a basis for this regulatory action were
relating to recordkeeping matters and standard
operating procedures, were presumably already
extensively reviewed in the prior regulatory proceedings and resolved to the parties, including
the State’s satisfaction.
One need only examine and compare the highly
factual recitation of the alleged violations in 2018
and even the specific vehicle related violations
in the present suspension letter to raise what I
find to be a legitimate question about the propriety
of the underlying investigation and findings that
resulted in the summary suspension.
It also appears that the summary suspension was
the product of rather hasty decision-making,
coming almost only approximately two weeks
after the inception of the original investigation.
When one examines the prior investigation of the
prior regulatory proceedings going back into 2018,
the summary suspension was not issued until after
what appears to be a considerably longer, more
deliberative process that—that took place at that
time, prior to the issuance and the suspension that
appears to have taken place here.
There is also the fact that the investigative team
was removed here following—certainly following
the issuance of this suspension, and there is the
fact that there were communications with certain
third parties that are in the record. I’m not talking
in this regard about the contacts that were made

App.58a
to South Orange and Irvington, which appear to
me to have been accurate statements of what
had happened and given to other governmental
bodies that were known to have contracts with
AmeriCare for their information.
But there are also contacts with Robert Wood
Johnson and counsel for a business competitor and,
once again, I find no fault here with counsel, but
it does appear to me that the information that
was conveyed to that counsel resulted, at minimum, in conveying an incomplete picture of the
circumstances by commenting on the status of
an ongoing investigation and not thereafter, at
least according to the present record, create—
correcting the record by informing that same
party or parties about the reinstatement of certain
of the vehicles.
These matters in the present record, including the
irreparable harm which is I find is at issue here,
cause the Court to conclude that this case is
properly viewed through the prism of a legitimate
civil rights claim, which is properly venued in
this Court, and to find a sufficient basis not to
direct the—not to decline the exercise of this
Court’s jurisdiction in favor of exhaustion of
administrative remedies.
I emphasize in that regard the limited nature of
my conclusion in this respect. I find that courts
can and should be wary of claims that are cloaked
in the mantel of civil rights, and I conclude that
very few cases involving highly regulated entities,
such as AmeriCare, should be directed in any
way from the prescribed regulatory process on
the grounds of a civil rights claim.

App.59a
There certainly could be circumstances in—that—
that are more akin to a—an attempt by a
regulated entity to bypass authorized and well
established administrative mechanisms simply
because they don’t like or they fear the outcome.
But I conclude, at least at this time, on the basis
of the record before me, that that is not the case
in this circumstance.
So with that lengthy background, I turn to the
specific application for the limited restraints
that are sought here by the plaintiff. Of course, I
apply the standards of Crowe versus DeGioia,
which is at 90 New Jersey 126 (1982). I’m also
informed in my analysis by Waste Management

of New Jersey, Inc. versus Morris County Utilities
Authority, which is 433 N.J. Super. 445. Of
course, Crowe versus DeGioia is the well known

case, sets out the standards for the relief that’s
sought in this case of—of a temporary or preliminary injunctive nature, requires a showing by
clear and convincing evidence of several factors.
First, there must be a showing of irreparable harm.
There must be a showing of a settled legal right.
There must be a showing of—of a reasonable
probability of success on—on the merits, which
the Court in that case made clear involved the
absence of significant and material disputes of
fact as to the underlying matter. And there must
be an assessment of the relative hardships of the
parties, the hardships to the applicant from
denial of the relief, weighed against the hardship
to the opponent from the granting of the relief.
That balance of hardships has to weigh in favor
of the applicant by clear and convincing evidence.

App.60a
And the Court must also in appropriate cases,
and this is certainly an appropriate case, weigh
the public interest which may be at issue.

Waste Management makes clear that in certain
circumstances involving the possible destruction
of the res of the subject matter of the litigation
or in other circumstances, the Court as a matter
of equity can apply and should apply a less rigid
approach to the Crowe factors.
That case involved a bidding dispute among parties
in which the—the—the losing bidder, or bidders
sought relief against the contract that had been
awarded going forward, sought temporary and
preliminary injunctive relief. The essential grounds
that they asserted were that the successful bidder
hadn’t complied with the bidding requirements
for a showing of adequate financial resources to
carry out the contract at issue, which was a—
a—a—Waste Management operating facility,
and the judge, the trial judge in that case found
that the plaintiffs hadn’t established a sufficient
probability of success on the merits and thus
denied the application.
On appeal, the Appellate Division reversed, actually, entered an injunction, and determined
that the trial judge had inappropriately not
examined all of the other Crowe factors. And in
so—in—in so holding, the Court came to the
following conclusions. The—the obser—it—it found
that the observation it had made that the trial
judge on the record—that it was not going to
second guess the trial judge’s determination that
there was a lack of showing of a probability of
success on the merits, nonetheless concluded

App.61a
that that observation doesn’t end the matter.
Instead, and we’re here at page 453, as Judge
Clapp explained many years ago, the reason we
consider whether a movant’s right to injunctive
relief is clear, doubt—doubtless lies in the fact
that a interlocutory injunction is so drastic a
remedy. Citation omitted.
But our Courts have also long recognized that
there are exceptions, as where the subject matter
of the litigation would be destroyed or substantially
impaired if a preliminary injunction did not
issue. Citations omitted. That is, a Court may
take a less rigid view of the Crowe factors and
the general rule that all factors favor injunctive
relief when the interlocutory injunction is merely
designed to preserve the status quo. The power
to—quotation or cite—quotation and citation
omitted. The power to impose restraints pending
the disposition of a claim on its merits is flexible.
It should be exercised whenever necessary to
subserve the int—the ends of justice, and justice
is not served if the subject matter of the litigation
is destroyed or substantially impaired during
the pendency of the suit.
On to page 454, the Court continued: The less rigid
approach, for example, permits injunctive relief,
preserving the status quo, even if the claim
appears doubtful when a balancing of the relative
hardships substantially favors the movant, or
the irreparable injury to be suffered by the
movant in the absence of the injunction would
be imminent and grave, or the subject matter of
the suit would be impaired or destroyed.

App.62a
And I find that analysis applicable to the circumstances here. First, I conclude that there
has been a showing of irreparable harm, as I’ve
already said. I find that there is no adequate
remedy at law in the circumstances presented.
The license to continue to operate in this—in
this space, albeit regulated space, has been
suspended. There is a substantial danger that
the entire business of AmeriCare could be crippled
or even destroyed during the pendency of this
case. It has already lost two or possibly even
three major business engagements as a result of
the circumstances of this case.
And, thus, I concluded it is appropriate for the
Court to act to avoid the irreparable harm to the
business, pending further examination of the
matters that are the subject of this case, and
until the case can be fully adjudicated.
As to the question of a substantial or a settled
legal right. Of course, there is no right to a—to
a—a governmental license, nor is there a right
to operate a regulated business without full
compliance with all applicable material regulatory
standards. But there is a right to operate a business when the authority—when the—under the
authority of a license that has already been
granted, without improper, un—unfair or arbitrary
interference, possibly involving retribution—
although I make no such finding as to the latter
point at this time by regulatory authorities or
investigators.
When I examine the merits of this case, I—I—I
find the facts are certainly disputed among the
parties. There is material disputes among the

App.63a
facts. But I am applying the Waste Management
standard here. A less rigid approach to the
element of reasonable probability of success on
the merits in view of what I find to be is the
grave harm at issue. I find that a less rigorous
approach to this factor is warranted to avoid
essentially the destruction of the res in this case,
which is the business of AmeriCare, pendente lite.
As noted, I find there are substantial grounds
present in the record for this case to proceed on
a theory of violation of civil rights.
When I consider the balance of hardships, I find
that there would be a substantial hardship to
the plaintiff from denial of the relief. As I said,
what has been an interruption of its business could
quickly become the destruction of that business,
as a practical matter, through its inability to
operate in the foreseeable future. And I also note
the limited nature of the relief that I am going to
grant here.
I am going to lift the—the present summary
suspension and permit the plaintiff to operate the
reinspected and re-authorized vehicles, provided
that they are and remain in compliance with all
applicable legal standards, and I’m going to require
the prompt reinspection of the remaining vehicles.
It is not my intention in entering this relief to
undertake oversight of the normal functioning of
the Department of Health and the implementation
of its statutory and regulatory mandate. Should
the agency find that the vehicles that I am requiring be reinspected aren’t in compliance, or can’t
operate, or—or find that there are other grounds

App.64a
for recourse to its administrative mechanisms,
including a summary suspension, it is not the
intention of this Court to stand in the way of that.
It only sets aside here the suspension that is
currently in place in order to restore what I
believe is—appropriate is the status quo and
to—and to preserve the—or—or to protect against
what I find to be the imminent irreparable harm
that the plaintiff would suffer if the Court did
not act.
There is certainly hardship to the agency here that
the Court must examine, but I find it is limited
to the burden of the immediate reinspection of
the vehicles. I—I find that the balance of hardships
here to—to weigh substantially in favor of granting
the relief.
I am highly cognizant of the public interest at
stake here. There are different public interests
at stake which the Court must consider. First,
there is the undoubted public interest in the safe,
responsible operation of providers like AmeriCare
of a very vital service, which is critical to the public
safety, health and welfare. An irresponsible
material and non—non-compliant operator has
absolutely no business operating in this critical
field of endeavor and the—the safe and responsible operation of operators such as AmeriCare is
and should be normally vested entirely with
appropriate rights to judicial review in the
administrative agency with both the oversight
responsibility and the expertise to conduct that
oversight, which agency is charged with acting
to protect the public safety in this critical,
sensitive area.

App.65a
But there is also a public interest in having a
robust industry of service providers in this area,
and providing fully compliant services as responsible operators, free from undue and improper
regulatory oversight.
Given what I believe is the tenor of the present
record, once again emphasizing the preliminary
nature of that record, indicating the—indicating
on the basis of that record the possibility of the
improper exercise of regulatory authority, implicating the civil rights of the plaintiff, I believe
that the public interest is best ser—served in
this context by granting the limited relief that is
sought and that I am granting.
I emphasize again the limited nature of the relief
that I am granting. I am setting aside the present
suspension, summary suspension of AmeriCare.
I am permitting the operation of the reinspected
and cleared vehicles, and permitting them to
resume operation, and I’m requiring the prompt
reinspection of the other vehicles. But, as noted,
I do not intend, absent a sufficient showing by
the plaintiffs to the contrary, to intervene beyond
this in the normal functioning of the agency and
in the implementation of its regulatory responsibilities and its mandate.
And so, for those reasons, I—I am going to grant
the application of the plaintiff to the extent that
I have indicated.
I will enter an Order to that effect. I am going to
set this down for a prompt hearing on a preliminary injunction application. I will also provide
in the Order that should the defendant, State of

App.66a
New Jersey, Department Health wish, on two
days notice it can seek with appropriate proofs
to dissolve or modify these restraints in—in any
way that it wishes on—on appropriate notice.
In terms of scheduling, having given some thought
to the schedule, I believe there will be a need for
some limited discovery in this matter. I’m going
to set this down for a preliminary injunction
application and hearing on August 2nd at 9:00.
I am going to require that any opposition papers
on behalf of the State be submitted by—going to
make that July—we’ll make that July 20—we’ll
make it July 19th, and any further reply papers
on behalf of the plaintiff, following the performance
of any discovery that the parties wish to engage
in, we’ll make that July 26th.
I will convene—I’m going to ask the parties to
consult with one another about appropriate
discovery and timing for discovery. I’m going to
convene a Case Management Conference to hear
any issues about discovery. We’ll make that
Monday—we’ll make it Tuesday, July 9th, at—
we can do this telephonically, although you’re
welcome to come to Court, if you wish. We’ll
make that 9:30.
And I’m going to ask that counsel for the plaintiff
in the first instance prepare a Form of the
Order, submit it to the defendant—defendants
for any type of review and submit it to me as
quickly as possible. All right?
COUNSEL: Thank you. We will.
COUNSEL: Thank you.

App.67a
THE COURT: Thank you, Your Honor.
THE COURT: Are there any questions?
COUNSEL: No, Your Honor.
THE COURT: All right. Thank you all.
MR. BARTLETT: Thank you, Your Honor. Your
Honor? Your Honor?
THE COURT: Yes, sir?
COUNSEL: Are we still on?
THE COURT: Yes?
MR. BARTLETT: Yes. Hi. This is John Bartlett, on
behalf of Township of Irvington. What’s Your
Honor’s expectation of—we’re named as a interested party defendant? What is Your Honor’s
expectation in terms of responsive pleading for
future appearances by the Township of Irvington?
COUNSEL: Well, I guess, we’re going to (inaudible)
this thought.
THE COURT: I am going to expect that you be
notified of appearances and I’ll expect that if you
wish to attend them that you are free to do so.
But there—no relief is sought against you and,
therefore, I don’t find there is any need for you
to file a pleading. Should there be, and I don’t—I
don’t believe there is anything before me that
would indicate a need for it, but should there be
a need for discovery from the Township of
Irvington, we’ll take that up as—as it appears to
be necessary. All right?
MR. BARTLETT: Sure. Of course. Thank you very
much for clarifying that, Judge.

App.68a
THE COURT: All right. Very well. So long.
COUNSEL: Thank you, Your Honor.
THE COURT: All right. So long.
COUNSEL: Thank you, Your Honor.
COUNSEL: Good day, Your Honor.
THE COURT: So long.
COUNSEL: Okay. Bye-bye. All right.
(Proceedings Concluded)

App.69a
APPLICATION FOR PERMISSION
TO FILE EMERGENT MOTION
(JULY 17, 2019)
SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
________________________
To: Appellate Division Emergent Judge
From: Patrick Jhoo, DAG
Telephone: 609.376.3200
The following questions are to be answered by
the attorney or self-represented litigant requesting
permission to file an emergent motion. This questionnaire is designed to assist the court’s determination
respecting its further instructions. COMPLETION
OF THIS APPLICATION DOES NOT IN ANY SENSE
CONSTITUTE THE FILING OF AN APPEAL OR
MOTION. There is no right to be heard orally on an
emergency application. Further instructions will come
from the court.
Except by permission of the court, the only documents you may submit with this application are: a copy
of the decision being appealed, any opinion or statement
of reasons given by the trial judge or agency, and any
order or decision denying or granting a stay. A copy
of this application must be served simultaneously on
both your adversary and the trial judge or agency.
No answer shall be filed unless directed by the court.
If the court grants you permission to file an
emergent motion and you have not previously filed a
motion for leave to appeal or notice of appeal (whichever is applicable), you must simultaneously file one.

App.70a

See njcourts.com for notice of appeal and Court Rules.
You must also pay the applicable filing fee ($50 for a
motion for leave to appeal; $250 for a notice of appeal),
direct the charging of an attorney’s account with the
Superior Court, or file a motion to proceed as an
indigent and supporting certification.
Case Name:

AmeriCare Emergency Medical Service,
Inc. v. OEMS et al.
Trial Court or Agency Docket Number:
ESX-L-2397-19
1.

What is the vicinage of the matter? (i.e., what
judge, in what county or what agency entered
the decision?)
Vicinage: Hon. Keith E. Lynott, J.S.C., Essex
County Law Division.

2.
a)

What is your name, address, including any
e-mail address, phone number and fax
number?
Patrick Jhoo, DAG
Hughes Justice Complex
25 Market Street
P.O. Box 112
Trenton, New Jersey 08625-0112
patrick.jhoo@law.njoag.gov
Telephone: 609.376.3200
Facsimile: 609.777.4036

App.71a
b)

Who do you represent? (i.e., client, yourself)
New Jersey Department of Health, Office of
Emergency Medical Services, Scot Phelps,
James Sweeney, and Eric Hicken.

3.

List the names of all other parties and name,
address, including any known e-mail address,
phone number and fax number of attorney for
each.
Plaintiff, AmeriCare Emergency Medical
Service, Inc.
Rajiv D. Parikh, Esquire
Maria R. Fruci, Esquire
Genova Burns
494 Broad Street
Newark, New Jersey 07102
Telephone: 973.533.0777
Facsimile: 973.533.1112
Mfruci@genovaburns.com
Rparikh@genovaburns.com
Shay D. Deshpande, Esquire
Franzblau Dratch
354 Eisenhower Parkway
Livingston, New Jersey 07039
Telephone: 973.992.3700
Facsimile: 973.992.7945
Sdeshpande@njcounsel.com

4.

What is the nature of the emergency?
On June 18, 2019, OEMS issued a decision summarily suspending AmeriCare’s license to provide
Mobility Assistance Vehicle (MAV), Basic Life
Support (BLS), and Specialty Care Transport
Unit (SCTU) services in New Jersey. Essentially,

App.72a
the company’s vehicles and operators of those
vehicles are responsible for responding to 9-1-1
emergency calls and providing BLS, specialty
care, and transport services to seriously ill and
injured patients in the state. The suspension
was issued based on serious vehicle safety issues
of three of AmeriCare’s six emergency vehicles,
which included missing lug nuts on tires and
improperly secured doors, failure to implement
standard operating procedures, and failure to electronically submit patient care report data to the
Department. The suspension was also necessary
due to AmeriCare’s failure to cooperate with the
audit, preventing OEMS from verifying allegations of
non-credentialed or improperly credentialed staff,
unsecured patient care reports, and complaints
of non-compliance lodged against the agency.
Notwithstanding OEMS’s position that the Law
Division lacks jurisdiction to overturn an agency
decision, on July 16, 2019, the Court issued an
order lifting OEMS’s summary suspension of
AmeriCare’s license and ordered that three of
the vehicles be placed back in operation. While the
vehicles at issue were reinspected and eventually
passed inspection and found to be in compliance
with DOH standards, OEMS has not yet received
any confirmation regarding the credentials of
AmeriCare staff, placing the public at risk of
receiving medical treatment by individuals who
are not qualified. Additionally, there is concern
that that AmeriCare could be operating a business
without any standard operating procedures, thus
placing the public at risk of “on the fly” decisions
by individuals who may not even be qualified to

App.73a
provide the services. Finally, AmeriCare is not
in compliance with the statutory requirements
for electronic submissions of claims reports to
OEMS and has also not established compliance
with patient confidentiality requirements. For all
of these reasons, the Court’s order poses an immediate and substantial risk of harm. By lifting the
summary suspension, the Court supplanted the
regulatory judgment of OEMS and allowed an
ambulance company to conduct business in a
way that is a direct threat to the seriously ill
and injured who call 911 for emergency care or
patients that require interfacility transfer due to
serious and life-threatening medical conditions
such as ventilator-dependent patients. This order
is manifestly contrary to the regulatory judgment
of OEMS, which is the agency responsible, by
statute and rule, for emergency-medical services.
See N.J.S.A. 26:2H-1 to-140.
5.

What is the irreparable harm, and when do you
expect this harm to occur?
The irreparable harm posed in this matter is the
improvident judicial removal of the summary suspension against AmeriCare and the allowance of
the company to operate as a provider of emergencymedical services to New Jersey residents. Judge
Lynott has essentially permitted an ambulance
company to go back into business that OEMS has
reason to believe is so deficient in the quality and
safety of its vehicles, and its lack of cooperation
with the regulatory officials as to warrant removal
from the provision of any services to the public.
The July 16, 2019 order lifting of the suspension
creates an immediate threat to public health

App.74a
and safety by allowing AmeriCare to provide
emergency-medical services to the citizens of
New Jersey.
6.

What relief do you seek?
OEMS seeks an immediate interim stay of the
Court’s July 19, 2019 order imposing temporary
restraints and lifting the summary suspension.
Additionally, OEMS seeks reversal of the Court’s
July 2, 2019 decision denying OEMS’s motion to
dismiss the matter for lack of jurisdiction, or
alternatively, transfer the matter to the Department of Health consistent with N.J.S.A. 26:2H-14
and R. 1:13-4(a).

7.

Do you have a written order or judgment entered
by the trial judge or a written agency decision?
You must attach a copy of the order, judgment
or decision.
Yes, please see the attached order of July 16,
2019 and attached transcript of the Court’s July
2, 2019 ruling on jurisdiction.

8.
a)

Have you filed for a stay before the trial
court or agency?
Yes.

b)

If so, do you have a court order or agency
decision denying or granting same? Attach
a copy of any such order or decision. Before
you seek a stay from the Appellate Division,
you must first apply to the trial court or
agency for a stay and obtain a signed order
or decision or other evidence of the ruling

App.75a
on your stay application. (Court Rules 2:9-5
and 2:9-7)
Stay has been denied.
9.

If you did not immediately seek a stay from the
trial court or agency, or if you did not immediately file this application with the Appellate
Division after the trial court or agency denied your
stay application, explain the reasons for the delay.
OEMS received the Court’s July 16, 2019 Order
today, July 17, 2019. It immediately sought a stay
with the trial court and filed this application.

10. Are there any claims against any party below,
either in this or a consolidated action, which have
not been disposed of, including counterclaims,
cross-claims, third-party claims and applications
for counsel fees?
If so, the decision is not final, but rather interlocutory, and leave to appeal must be sought.
(Court Rules 2:2-4 and 2:5-6)
Yes. The relief granted in the July 16, 2019 was
emergent only and did not address all the
parties or issues in the case.
11. If the order or agency decision is interlocutory
(i.e., not final), are you filing a motion for leave
to appeal?
Yes. OEMS will be filing a motion for leave to
appeal.
12. If interlocutory, are you filing a motion to stay
the trial court or agency proceeding?
Yes

App.76a
13. If the order, judgment or agency decision is final,
have you filed a notice of appeal?
N/A.
14. What is the essence of the order, judgment or
agency decision?
Judge Lynott issued a temporary-restraining
order lifting the summary suspension against
AmeriCare by OEMS. As a result of this order,
AmeriCare is permitted to provide emergencymedical services to the citizens of the State of
New Jersey contrary to the determination of
OEMS.
15.
a)

Has any aspect of this matter been presented to or considered by another judge or
part of the Appellate Division by emergent
application or prior appeal proceedings? If
so, which judge or part?
No.

b)

Have the merits briefs been filed in this
matter? If so, has the matter been calendared to a part of the Appellate Division?
No.

16.
a)

Have you served simultaneously a copy of
this application on both your adversary and
the trial judge or agency?
Yes.

b)

If so, specify method of service.

App.77a
The method of service on the Court and
counsel was electronic filing on eCourts.
17.
a)

Have any transcripts been ordered (particularly of the trial judge’s challenged ruling)?
Yes, the transcript of Judge Lynott’s oral
opinion issued on July 2, 2019 has been
ordered by OEMS and received. A copy is
submitted with this Application.

b)

If so, when will the transcript(s) be available?
N/A.

18. Please give a brief summary of the facts of your
case.
Following the receipt of a complaint regarding the
atrocious conditions of some of the ambulances
utilized by AmeriCare, OEMS commenced an
audit of the fitness and adequacy of the
company’s equipment and personnel pursuant to
N.J.S.A. 26:2H-5 and N.J.A.C. 8:40 and 41, et
seq. As a result of the OEMS attempted audit,
three ambulances were placed out of service.
During the course of the attempted audit, OEMS
also received additional complaints regarding
AmeriCare’s credentialing methods of employees
(e.g., as emergency-medical technicians). OEMS
attempted to conduct an audit based on the
serious complaints that were lodged against
AmeriCare but due to Americare’s lack of cooperation, OEMS was unable to investigate the
complaints. Due to the deficiencies of the vehicles,
the concern about valid employee credentials, as
well as a lack of cooperation with the audit on

App.78a
the part of AmeriCare, OEMS issued a summary
suspension of AmeriCare’s license as a Mobility
Assistance Vehicle Service, Basic Life Support,
and Specialty Care Transport Unit Agency on
June 18, 2019. See Notice of Summary Suspension
(June 18, 2019) attached.
Rather than pursuing the administrative remedies
outlined in the June 18, 2019 Notice of Summary
Suspension for filing for emergency relief with
the Commissioner of the Department of Health
as required by N.J.S.A. 26:2H-14, AmeriCare filed
an amended verified complaint (the underlying
and unrelated complaint was filed in March 2019
against the City of Orange and Bell Medical
Transportation alleging violations of the public
bidding process) and order to show cause seeking
temporary restraints against OEMS in the
Superior Court of New Jersey, Law Division.
Following briefing (in which OEMS argued that
the exhaustion requirement necessitated the
dismissal of the application) and oral argument,
the Hon. Keith E. Lynott, J.S.C., found that he
had jurisdiction to issue the relief sought and
that AmeriCare had satisfied the factors of
Crowe v. DeGioia, 90 N.J. 126 (1982). On July
16, 2019, Judge Lynott entered an order lifting the
summary suspension and permitting AmeriCare
to operate three of its vehicles. Judge Lynott
further ordered OEMS to inspect all remaining
Americare vehicles.
19. What legal citation (i.e., statute, regulation, court
case) is most important for the proposition that
you are likely to prevail on appeal?

App.79a
1. This matter does not belong in the trial court:
The Supreme Court has assigned the Appellate
Division exclusive review over state agency or
officer final decisions or actions. See N.J. Const.,
art. VI, § 5, ¶ 4; R. 2:2-3; Prado v. State, 186 N.J.
413, 422 (2006) (observing that R. 2:2-3(a)(2) “vests
the Appellate Division with exclusive jurisdiction
over all such decisions or actions.”); DeNike v.
Bd. of Trs., State Employment Ret. Sys., 62 N.J.
Super. 280, 291 (App. Div. 1960) (reiterating that
“if the defendant is a state agency, plaintiff
should proceed in the Appellate Division.”), aff’d,
35 N.J. 430 (1961). The rule entertains no exceptions, and the Supreme Court has disapproved efforts of lower courts to create them.
See, e.g., Infinity Broad. Corp. v. N.J. Meadowlands Comm’n, 187 N.J. 212, 225 (2006); Prado,
186 N.J. at 421.
Judicial review in the Appellate Division of the
actions of State officers is exclusive and does not
depend on nature of the action or the relief sought.
Mutschler v. Department of Environmental Protection, 337 N.J. Super. 1, 9 (App. Div.), certif.
denied, 168 N.J. 292 (2001). The Law Division, it
noted, lacks jurisdiction to review the actions of
State agencies, id. at 8-9, and, furthermore, has
the “responsibility” to transfer to the Appellate
Division a challenge to the action of a State
agency. Id. at 10.
2. The Department of Health has exclusive jurisdiction to regulate emergency medical services:
N.J.S.A. 26:2H-14 authorizes the Commissioner
to summarily suspend the license of a health care
provider if he or she determines that alleged

App.80a
violations of agency standards pose an immediate
threat to the health, safety and welfare of the
public and requires that any denial of such
allegations shall be heard by the Commissioner.
More generally, OEMS has comprehensive regulatory authority over emergency-medical services
to ensure the quality of those services. N.J.S.A.
26H-1 to-140 and N.J.S.A 26:2K. As defined in
N.J.S.A. 26:2H-2(b), health-care services include
prehospital basic-life-support-ambulance services.
N.J.S.A. 26:2H-5 grants the Commissioner of the
Department of Health the power to inquire into
health-care services and to conduct periodic inspections with respect to the fitness and adequacy of
the equipment and personnel employed by those
services. Moreover, the Department is authorized
to establish the standards for equipment, supplies,
and vehicles of mobility-assistance-vehicle-service
providers. N.J.S.A. 30:4D-6.4. To effectuate these
statutory objectives, the Department has adopted
regulations that govern the licensure and inspection of ambulance, specialty-care-transport, and
mobility-assistance-vehicle-service providers and
their vehicles. Those regulations are set forth in
their entirety at N.J.A.C. 8:40 and 8:41.
3. AmeriCare is required to exhaust administrative remedies before seeking judicial relief:
Where the plaintiff has available to him the
right of review before an administrative agency,
a court of law may not grant relief upon such a
complaint. Rule 4:69-5 requires that plaintiffs
exhaust any available review process before an
administrative agency prior to bringing an action
in state court. The doctrine requires parties to

App.81a
pursue available administrative remedies before
seeking relief in court. Paterson Redevelopment
Agency v. Shulman, 78 N.J. 378 (1979), cert. den.
444 U.S. 900 (1979); Roadway Express v. Kingsley,
37 N.J. 136, 141 (1962); Central R.R. v. Neeld,
26 N.J. 172, 178 (1958), cert. den. 357 U.S. 928
(1958). The doctrine is concerned with promoting
proper relationships between the courts and
administrative agencies charged with particular
regulatory duties. Boldt v. Correspondence Management, Inc, 320 N.J. Super. 74, 83 (1999). The
doctrine applies where a claim is cognizable in
the first instance by an administrative agency
alone. Ibid. When the doctrine is applied, judicial
interference with the issue is withheld until the
administrative process has run its course. Ibid.
By signing below, I certify that this application
is made in good faith, and not for any improper
purpose such as to harass or to cause unnecessary
delay or expense. I further certify that the factual
statements contained in this application are true to
the best of my knowledge.
/s/
Patrick Jhoo
Deputy Attorney General
/s/
Signature of Attorney or
Self-Represented Litigant
Date: July 17, 2019

App.82a
LETTER FROM THE DEPARTMENT OF HEALTH
REGARDING NOTICE OF SUMMARY SUSPENSION
(JUNE 18, 2019)
STATE OF NEW JERSEY
DEPARTMENT OF HEALTH
OFFICE OF EMERGENCY MEDICAL SERVICES
PO Box 360
Trenton, NJ 08625-0360
www.nj.gov/health
___________________________________
Philip D. Murphy
Governor
Sheila Y. Oliver
Lt. Governor
Shereef M. Elnahal, MD, MBA
Commissioner
Fabrizio Bivona
Americare
35 Essex Place
Dumont, NJ 07628
Re: Notice of Summary Suspension:
Mobility Assistance Vehicle/Basic Life Support/
Specialty Care Transport Unit Service Provider
Investigation Control # 2019-0091V
Dear Mr. Bivona:
The New Jersey Department of Health (the
Department) is vested with the responsibility of
carrying out the provisions of the Health Care Facilities
Planning Act, N.J.S.A. 26:21-1-1 et seq., which was

App.83a
enacted, in part, to ensure that hospital and related
health care services rendered in New Jersey are of
the highest quality. As defined at N.J.S.A. 26:2H-2b,
health care services include pre-hospital basic life
support ambulance services. N.J.S.A. 26:2H-5 further
grants the Commissioner of Health the power to
inquire into health care services and to conduct periodic inspections with respect to the fitness and
adequacy of the equipment and personnel employed
by those services. Additionally, N.J.S.A. 26:2K-7 et
seq. governs the provision of advanced life support
services within the State of New Jersey, including
the development and maintenance of a specialty care
transport program by an approved healthcare provider.
Even more, the New Jersey Medical Assistance and
Health Services Act, N.J.S.A. 30:40-1, et seq., requires
the Department to establish the requirements for the
equipment, supplies, and vehicles of mobility assistance
vehicle service providers. See N.J.S.A. 30:4D-6.4. In
furtherance of each of the aforementioned statutory
objectives, the Department adopted regulations that
govern the licensure and inspection of ambulance,
specialty care transport and mobility assistance vehicle
(MAV) service providers and their vehicles. Those
regulations are set forth in their entirety at N.J.A.C.
8:40 and 8:41.
On May 30, 2019, the Department’s Office of
Emergency Medical Services (OEMS) received a
complaint about serious safety issues with Americare’s
vehicles. Specifically, the complainant reported that
doors of an Americare ambulance were falling of
their hinges, main oxygen cylinders were empty due
to known leaks in the system, and wheels were
falling off an ambulance while in use. The complainant

App.84a
further provided that these vehicles were responsible
for providing 911 emergency medical services for the
City of Irvington and Village of South Orange. Consistent with regulatory authority and the OEMS
policy, the OEMS opened an investigation in response
to this complaint.
Upon opening the investigation, the OEMS
investigator confirmed that you are currently licensed
to provide Mobility Assistance Vehicle (MAV), Basic
Life Support (BLS) and Specialty Care Transport
Unit (SCTU) service in New Jersey. According to the
OEMS licensing system (hereby referred to as the
licensing system), you operate six BLS/SCTU vehicles
(#5253, #5256, #5258, #5259, #5260, #5261) and one
MAV vehicle (#M001), At the time of the initial
complaint, vehicle #5261 had already been placed on
a Department Initiated Out of Service (DIOOS) status
after an inspection in Jersey City, New Jersey found
the following violations:
Vehicle #5261:
1.

Inoperable front emergency grill lights, in
violations of N.J.A.C. 8:40-6.12(f);

2.

Missing protective jackets, in violation of
N.J.A.C. 8:40-6.15(b)(2)(v); and

3.

A fire extinguisher missing inspection tag,
in violation of N.J.A.C. 8:40-4.4.

Note: This vehicle was re-inspected on June 10,
2019 but failed due to a missing lug nut on the
driver side rear tire, in violation of N.J.A.C.
8:40-4.4, and a half inch tear on the stretcher
mattress making it pervious to blood borne pathogens, in violation of N.J.A.C. 8:40-4.5. The vehicle

App.85a
was placed back in service on June 12, 2019
after passing inspection.
In response to the complaint, an unannounced
spot check was conducted on May 31, 2019 on vehicles
#5256 and #5258 at University Hospital and NewarkBeth Israel Medical Center, respectively. At the time
of inspection, serious safety concerns were found, and
the vehicles were placed on a DIOOS. The deficiencies
are listed below:
Vehicle #5256:
1.

Expired vehicle registration and insurance
card, in violation of N.J.A.C.8:40-4.3 and
N.J.A.C. 8:40-3.3, respectively;

2.

The rear step to the back of the vehicle gives
way when in use causing a safety hazard, in
violation of N.J.A.C. 8:40-4.4;

3.

The main oxygen retention system did not
secure the cylinder, in violation of N.J.A.C.
8:40-4.4. The retention system appears to be
designed to secure two cylinders and only one
was present;

4.

The driver side front tire is balding, in violation of N.J.A.C. 8:40-4.7;

5.

The sliding side door is difficult to open, and
it was discovered that it was not attached
properly as it almost came off the vehicle
when the investigator was finally able to
open it, in violation of N.J.A.C. 8:40-4.4;

6.

There is a hole in the passenger seat making
it pervious to blood borne pathogens, in violation of N.J.A.C. 8:40-4.5; and

App.86a
7.

The map light is hanging with exposed wires,
in violation of N.J.A.C. 8:40-4.4.

Note: This vehicle finally passed reinspection on
June 12, 2019.
Vehicle #5258:
1.

The crew was unable to locate the vehicle
registration, in violation of N.J.A.C. 8:40-4.3;

2.

The passenger front tire is balding, in violation of N.J.A.C. 8:40-4.7;

3.

The passenger front door gasket is torn, in
violation of N.J.A.C. 8:40-4.4;

4.

The portable oxygen is not secured in an
appropriate retention system. Instead, cylinders were placed into an oxygen bag and
placed on the bench seat, in violation of
N.J.A.C. 8:40-4.4;

5.

The front license plate is missing, in violation
of N.J.A.C. 8:40-4.4;

6.

There is a hole in the arm rest of the front
passenger seat making it pervious to blood
borne pathogens, in violation of N.J.A.C.
8:40-4.5;

7.

The music radio in the dashboard had fallen
into the dashboard and was reported by the
crew to fall out while driving, in violation of
N.J.A.C. 8:40-4.4; and

8.

The portable suction unit smelled like emesis
when turned on making it unsanitary and,
therefore, inoperable, in violation of N.J.A.C.
8:40-4.5.

App.87a
Note: This vehicle remains out of service.
The severity of the violations found during the
vehicle inspections prompted OEMS to conduct an
unannounced audit of Americare. Accordingly, on June
3, 2019, OEMS investigators presented at 35 Essex
Place in Dumont, New Jersey, which is Americare’s
principle place of business as entered in the licensing
system, to conduct the audit. Upon arrival, it appeared
that the address was a residence. Investigators
attempted to gain access, but no one answered the
door. The investigators had received notification from
the complainant that you also operated out of a
station on Rosehill Place in Irvington. Investigators
attempted to locate your company by arriving at the
station but, upon arrival, the building was unlocked
and vacant with no vehicles in the bay.
Later that day, investigators returned to Rosehill
Place and found vehicle #5259 from Americare and
vehicle #700 from Virgo Medical Services (Virgo)
parked on the apron of the station. The crew sitting
in the Virgo vehicle were wearing Americare uniforms
and advised investigators that you borrowed the
vehicle from Virgo and directed them to use it to
provide emergency services to Irvington. Investigators
then contacted. Virgo to discuss this arrangement.
They advised that you had contacted them on June 2,
2019 and arranged for them to provide emergency
coverage for Irvington from 3:00 PM on June 2 to
7:00 AM on June 3. They also informed investigators
there was a possibility of providing additional coverage
the afternoon of June 3, 2019 from 3:00 p.m. to 11:00
p.m. As such, they kept vehicle #700 at the Rosehill
station with the keys in case this additional coverage
was needed. Once Virgo was informed that personnel

App.88a
wearing Americare uniforms was found operating
vehicle #700, investigators were informed that you
did not have permission to operate this vehicle with
your staff.
The investigators also inspected vehicle #5259
and found serious safety concerns, which resulted in
it being placed on DIOOS status. The deficiencies are
as follows:
Vehicle #5259:
1.

The insurance card was expired as of August
2018, in violation of N.J.A.C. 8:40-3.3;

2.

The fire extinguisher was not fully charged
and did not have an inspection tag, in violation of N.J.A.C. 8:40-4.4;

3.

Lug nuts were missing on the right rear tire,
in violation of N.J.A.C. 8:40-4.4;

4.

The interior surface was unsanitary with
what appeared to be multiple dirty gloves,
making it a health concern, in violation of
N.J.A.C. 8:40-4.5;

5.

There was no positive action latch on the
CPR seat, in violation of N.J.A.C. 8:40-4.4;

6.

The left front tire was balding, in violation
of N.J.A.C. 8:40-4.7;

7.

There were multiple open, unmarked bottles
of liquid in the cabinets, in violation of
N.J.A.C. 8:40-6.5; and

8.

The BLS crew had access to multiple pieces
of SCTU equipment, such as an intravenous
pump and ventilator tubing, in violation of
N.J.A.C. 8:40-6.5(c).

App.89a
At this point, the crew was able to contact
someone by phone who they identified as a supervisor
named Stephanie. Investigators spoke with Stephanie
and advised her of the attempt to conduct an audit.
She advised them that you were in an all-day meeting
and could not be interrupted. instead, she said she
could handle the audit. She advised investigators
that she was in the field but would be able to meet
them at the South Orange station, since you are
responsible for providing emergency medical services
to the Village of South Orange. Arrangements were
made with her to meet the investigators twenty
minutes after the phone call at the station located on
Crest Drive in South Orange, New Jersey. Investigators
arrived at the station within twenty minutes, waited
for over an hour and Stephanie never arrived or
called investigators to explain her absence.
On June 4, 2019, investigators attempted, again,
to conduct an audit of Americare. Investigators placed
multiple phone calls to the phone numbers listed in the
licensing system. Upon calling the cell phone number,
investigators were met with an automated message
advising that the number was no longer in service.
When the work number was called, someone answered
and sounded as though they were attempting to disguise themselves by using a high-pitched voice that
was unintelligible. When the investigators asked to
speak with you, the voice continued to be unintelligible,
causing the investigators to end the call. Because the
vehicles that could be inspected had major deficiencies
and investigators were unable to contact you, could
not locate all your vehicles, and were not met by the
supervisor as agreed, they had no choice but to place
the remaining vehicles in a DIOOS status to ensure

App.90a
public health, safety and welfare. The appropriate
dispatch centers were contacted as well as the City of
Irvington and Village of South Orange. The Emergency
Medical Services (EMS) County Coordinator was contacted to work with municipalities to ensure EMS
coverage was still accessible to the public for your
911 basic life support coverage areas.
During the investigation, investigators were also
advised that you borrowed a vehicle from another
company named RescueHeart (RescueHeart) Medical
Services and staffed it with your employees wearing
Americare uniforms. The crew, who was wearing
Americare uniforms, advised investigators they were
directed by you to use the vehicle and provide service
to Irvington.
Later the afternoon of June 4, 2019, you contacted
OEMS and spoke with the OEMS investigators. You
stated that you did not understand what the issue
was and were upset because your “contracted clients”
were contacted by OEMS. Even though there was no
availability on the inspection schedule, you were
scheduled for reinspection of two vehicles as a courtesy.
Specifically, you were given appointment times of 10:00
a.m. and 11:00 a.m. on June 5, 2019. On June 5, 2019
you failed to arrive for either of these appointments.
Instead, you arrived after 3:00 p.m. but were turned
away as there was no one available to inspect the
vehicles. Thereafter, you rescheduled your reinspection’s multiple times and OEMS was finally able to
place vehicles 5261, 5256, and 5259 back into service
after they passed inspection. However, vehicles 5253,
5258, 5260 and M001 remain out of service.
During the investigation, OEMS was also contacted by several individuals voicing concerns about the

App.91a
conditions at Americare. Investigators were provided
with photographs of Americare vehicles with a left
rear tire that had fallen off, broken lug nuts and
unsecured patient care reports strewn about the
ambulance compartment. A picture of an incident
report was also given to investigators. The report
states that you were notified that a hub cap, valve
stem and outer tire had broken off the vehicle, to
which you advised the crew to “slowly drive back.”
Due to the significant safety risks associated with
this vehicle, you should have had the vehicle towed,
rather than telling your crew to drive it back to the
garage. Such actions placed not only your crew, but
the public, in harm’s way.
In addition to concerns with the vehicles,
employees who were interviewed by the investigators
reported that you do not have proper credentials for
your staff. They reported they were never asked to
provide their credentials during employment with
Americare. Furthermore, it is said to be common
practice to have friends of employees’ staff vehicles
without knowing whether they are properly credentialed. Due to your avoidance of an OEMS audit,
the investigators have not had access to Americare’s
staff roster and credentials on file. As such, OEMS
has been denied the ability to verify that your crews
are properly credentialed and appropriately staffing
your vehicles, as required by N.J.A.C. 8:40-3.8.
During interviews, it was also reported to the
investigators that Americare does not have standard
operating procedures, as required by N.J.A.C. 8:403.5. Instead, you make operational decisions on the
fly. Additionally, it was reported that patient care
reports were kept unsecured in one of the stations

App.92a
with little concern for ensuring patient confidentiality
or patient identity, as required by N.J.A.C. 8:40-3.9.
Again, because Americare is evading an OEMS audit,
OEMS investigators have no way to determine whether
Americare is in violation of these requirements.
From this complaint investigation, OEMS also
discovered that Americare is in violation of N.J.S.A.
26:2K-67, which requires all emergency medical service
providers to electronically submit patient care report
data to the Department. As of the date of this letter,
you have not reported any data to the Department
and are, therefore, violating the law.
Based upon the investigators’ ongoing investigation, OEMS has found the following violations to date:
1.

Failure to maintain patient care reports, in
violation of N.J.A.C. 8:40-3.6;

2.

Failure to submit electronic patient care
reports, in violation of N.J.S. 26:2K-67;

3.

Failure to produce documentation requested
by OEMS investigators for inspection, in
violation of N.J.A.C. 8:40-2.6(c);

4.

Hindering an OEMS investigation, in violation of N.J.A.C. 8:40-2.6(c);

5.

Failure to maintain vehicles in a safe, clean
and properly functioning mariner, as required
by N.J.A.C. 8:40A-4.4, 4.5 and 4.6; and

Based upon the foregoing, the Department has
determined that Americare’s license as a Mobility
Assistance Vehicle Service, Basic Life Support, and
Specialty Care Transport Unit Agency must be summarily suspended. Pursuant to N.J.A.C. 8:40-7.2(b),

App.93a
“[t]he Commissioner or his or her designee may
summarily suspend the license of any provider when,
in his or her opinion, the continued licensure of that
provider poses an immediate or serious threat to the
public health, safety or welfare.” In the present matter,
the above cited deficiencies demonstrate a serious
disregard for the Department’s regulations. Even more,
you are intentionally inhibiting OEMS’s audit of your
agency, which is necessary to determine the extent of
Americare’s non-compliance with OEMS’ rules. Given
the nature of the complaints lodged against Americare,
the serious violations found to date and your evasion
of an OEMS audit, the Department finds that
Americare’s continued licensure as a MAV/BLS/SCTU
service provider constitutes an immediate and serious
threat to the health, safety and welfare of the public.
Therefore, Americare’s license as a Mobility Assistance
Vehicle Service, Basic Life Support and Specialty
Care Transport Agency is immediately suspended.
During this period of suspension, OEMS will continue to investigate this matter and will advise you
as to what action(s), if any, will be taken with respect
to your MAV/BLS/SCTU licenses. Such action may
include the imposition of monetary penalties and/or
revocation of your licenses. Additionally, Americare
must comply with OEMS’s audit and provide it with
full access to its agency files and vehicles, as required
by N.J.A.C. 8:40-2.6.
Please be advised that you may not, under any
circumstances, operate as a MAV, BLS or SCTU
service provider anywhere within the State of New
Jersey during this period of suspension. You have the
right to apply to the Commissioner of the Department
of Health for emergency relief to contest this summary

App.94a
suspension. A request for emergency relief shall be
submitted in writing and shall be accompanied by a
response to the charges contained in this notice.
Please include the control number 2019-0091V on
your correspondence and forward your request to:
New Jersey Department of Health
Office of Legal & Regulatory Compliance
P.O. Box 360, Room 805
Trenton, NJ 08625-0360
Attn: Ms. Tamara Roach
Finally, please note that failure to submit a request
for a hearing within 30 days from the date of this Notice
shall result in the continued summary suspension of
your MAV/BLS/SCTU provider licenses, therefore
forfeiting all rights to emergency relief. If you have
any questions concerning this matter, please contact
Dr. Jo-Bea Sciarrotta, Regulations Officer at (609)
633-7777.
Sincerely,
/s/ Christopher Neuwirth, MA, MEP, CBCP, CEM
Assisitant Commissioner
PHILEP Division
c: Scot Phelps, JD, MPH Paramedic, Director, OEMS
Jo-Bea Sciarrotta, OEMS
Eric Hicken, OEMS
James Sweeney, OEMS
Tami Roach, OLRC
City of Irvington
Village of South Orange

